APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court of
Mississippi
(June 17, 2020) . . . . . . . . . . . . . . . . . . 1a
Appendix B Order Denying Motion for J.N.O.V. or,
in the Alternative, Motion for New
Trial in the Circuit Court of
Tishomingo County, Mississippi
(November 19, 2019) . . . . . . . . . . . . . 43a
Appendix C Cross-Examination of Derrick Earnest
at Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 45a
Appendix D Cross-Examination of James Guthery
at Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 53a
Appendix E Cross-Examination of Jason Moore at
Trial in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 75a
Appendix F Closing Argument by Mr. O’Neal of
the Prosecution in the Circuit Court of
Mississippi for Tishomingo County
(October 9, 2018) . . . . . . . . . . . . . . . . 93a

1a

APPENDIX A
IN THE SUPREME COURT OF MISSISSIPPI
NO. 2019-KA-01724-SCT
[Filed: June 17, 2021]
_______________________________________
BRIAN R. TURNER a/k/a BRIAN
)
RUSSELL TURNER a/k/a
)
BRIAN TURNER
)
)
v.
)
)
STATE OF MISSISSIPPI
)
_______________________________________)
DATE OF
JUDGMENT:

10/08/2019

TRIAL JUDGE:

HON. KELLY LEE MIMS

TRIAL COURT
ATTORNEYS:

RAYMOND G. O’NEAL, III
KYLE DAVID ROBBINS
JOHN DAVID WEDDLE
ANDREW W. STUART, II

COURT FROM
WHICH
APPEALED:

TISHOMINGO COUNTY
CIRCUIT COURT

ATTORNEYS FOR
APPELLANT:

ANDREW W. STUART, II
ADAM G. PINKARD

2a
ATTORNEY FOR
APPELLEE:

OFFICE OF THE
ATTORNEY GENERAL
BY: SCOTT STUART

DISTRICT
ATTORNEY:

JOHN DAVID WEDDLE

NATURE OF THE
CASE:

CRIMINAL - FELONY

DISPOSITION:

AFFIRMED - 06/17/2021

MOTION FOR
REHEARING
FILED:
MANDATE ISSUED:
EN BANC.
CHAMBERLIN, JUSTICE, FOR THE COURT:
¶1.
On September 23, 2019, Brian Turner was found
not guilty of one count of aggravated assault upon a
law-enforcement officer (Count I) and was convicted of
one count of failing to stop a motor vehicle pursuant to
the signal of a law-enforcement officer (Count II), two
counts of aggravated assault upon a law-enforcement
officer (Counts III and IV) and one count of possession
of a firearm by a felon (Count V). Turner now appeals
his convictions and the circuit court’s denial of his
Motion for Judgment Notwithstanding the Verdict or,
in the Alternative, for New Trial (J.N.O.V. Motion).
Finding each of Turner’s assignments of error to be
without merit, we affirm Turner’s convictions and the
circuit court’s denial of the J.N.O.V. Motion.

3a
FACTS AND PROCEDURAL HISTORY
¶2.
On May 3, 2018, Mississippi Highway Patrol
Trooper Derek Earnest, along with Officers James
Guthery and Randy Cornelison of the Belmont Police
Department and Tishomingo County Sheriff’s Deputy
Jason Moore, established a safety checkpoint in North
Belmont, Mississippi. Two of the law- enforcement
vehicles had their blue lights illuminated, while Officer
Guthery’s vehicle was not illuminated. Officer Guthery
testified that “[e]verybody that [came] through [the
roadblock] stop[ped].” At one point, Trooper Earnest
“noticed a vehicle coming northbound that abruptly
stopped . . .” and “darted into an old parking lot, . . .
and went the other direction quickly without any
regard to traffic that might have been going that
direction.” Trooper Earnest testified that the vehicle
did not use a turn signal and that “there was . . . no tag
light.”
¶3.
Deputy Moore testified that the vehicle turning
around was unusual because “[m]ost people do not turn
around prior to a safety checkpoint.” Deputy Moore
then followed the vehicle and observed that “[t]he
vehicle did not have any tag lights” and that when he
ran the plates, “the tag was expired.” Deputy Moore,
deciding to initiate a traffic stop while following the
vehicle, turned on his blue lights. The truck pulled
over, and Deputy Moore got out of his vehicle and
approached the truck. Immediately after opening his
door and stepping out of the vehicle, Deputy Moore
observed “the driver . . . hollering and yelling and
extremely irate.” At trial, Deputy Moore identified
Turner as the driver of the truck.

4a
¶4.
Once Deputy Moore reached Turner, he asked
for his license. With Turner still “irate,” Deputy Moore
requested an additional unit at his location. Deputy
Moore asked Turner to exit the vehicle, drew his taser
and “told him to turn around and place his hands
behind his back” since Deputy Moore intended to
“arrest him for disorderly conduct based off of his
behavior.” Deputy Moore testified that Turner then
“said, F this, and he got back in his truck, and we
started a short pursuit north toward the cemetery.”
Deputy Moore also testified that he had reasonable
suspicion to believe that Turner committed traffic
violations by having no tag lights and an expired tag,
and he testified about Turner’s disorderly conduct
following the traffic stop.
¶5.
As the chase reached County Road 35, Turner
turned to go across a bridge that was closed. Turner
“did a doughnut back to the – back this way and came
back at [Moore] in a head-on manner.” After Deputy
Moore veered to avoid a wreck, Deputy Moore’s and
Turner’s vehicles collided. Deputy Moore forced his
driver-side door open and began to approach Turner’s
truck. Around that time, Officer Guthery arrived, and
Deputy Moore heard Officer Guthery giving Turner the
following verbal commands: “Show me your hands.
Drop the gun.” Deputy Moore then heard gunfire and
began “shooting for self-defense.”
¶6.
Officer Guthery testified that he then
approached Turner’s vehicle with his flashlight and
weapon out. Officer Guthery, after yelling at Turner to
get out of the truck, saw a “rifle come up.” Officer
Guthery “yelled for him to put the gun down,” and “[h]e

5a
rocked towards [Officer Guthery] with it, and then
[Officer Guthery] opened fire.” Officer Guthery testified
that he fired his duty weapon first. Deputy Moore
testified that he was in fear for Officer Guthery’s life as
well as his own. After running for safety nearby,
Deputy Moore observed Turner point and fire a rifle at
him, at which point Deputy Moore fired approximately
eight more rounds. Turner fled the scene of the
shooting in the truck, heading south on County Road
35.
¶7.
Investigator Mitchell of the Tishomingo County
Sheriff’s Office heard the gunfire from his home nearby
and arrived at the scene shortly after Turner fled. Once
on the scene, Investigator Mitchell found shell casings
of different calibers and bullet holes in the Belmont
patrol car and damage to Deputy Moore’s patrol unit.
Investigator Mitchell also took photographs of the
vehicles at the scene and measured distances between
the vehicles. Officer Rodney Belue from Red Bay,
Alabama, who was near the scene, helped investigate.
Agent Keith Woodruff of the Mississippi Bureau of
Investigation assisted in the investigation as well.
Turner was later arrested in Tennessee without
incident.
¶8.
On October 9, 2018, Turner was indicted by a
grand jury for one count of failure to stop, three counts
of aggravated assault of a law-enforcement officer and
one count of felon in possession of a firearm. On
January 22, 2019, Turner filed a Motion for Dash
Camera and Body Camera Surveillance, seeking an
order directing the State to produce

6a
a copy of any and all audio, video, digital or
electronic copy of any type of audio or video
recording that was made by the Mississippi
Highway Safety Patrol, the Belmont Police
Department, and or the Tishomingo County
Sheriff, or his deputies, to include, but not
limited to, the dashboard camera footage from
the aforementioned police patrol cars, or any
other police patrol car, at the time in question,
together with body camera footage from any
officer involved herein, to include: Trooper Derek
Earnest, Tishomingo Deputy Jason Moore,
Belmont Officer James Guthery, and Belmont
Officer Randy Cornilson.
Turner alleged that all three law-enforcement agencies
have and use body cameras and dash cameras. At the
hearing on the same motion, the circuit court ordered
the State
to provide all evidence, including dash cam
video, that they have in their possession or
through reasonable means of investigation can
uncover. . . . I am ordering that the State make
available any and all Brady[1] material, and
you’ll have an opportunity to cross-examine any
and all witnesses that you wish to call at the
appropriate time.
¶9.
On January 23, 2019, Turner additionally filed
a motion to suppress “any evidence that was allegedly
seized, as a result of the mentioned illegal search and
1

Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d
215 (1963).

7a
seizure and arrest, of Defendant and rule the same
inadmissible as to the Defendant . . . .” The circuit
court denied Turner’s motion to suppress, recognizing
first that Turner never stopped at the roadblock and
second that the officers had the ability to pursue a car
that makes a U-turn prior to a checkpoint to check
licenses, insurance “and other things.” The jury
ultimately found Turner not guilty on Count I and
guilty on Counts II-V. Turner then filed his J.N.O.V.
Motion on October 2, 2019. In the J.N.O.V. Motion,
Turner argued, among other things, that the circuit
court erred by failing to grant a mistrial after the State
commented on Turner’s failure to call a witness on his
behalf. Turner also argued that the verdict was against
the overwhelming weight of the evidence, that the
circuit court erred by failing to order production of body
cameras, that the circuit court erred by permitting the
testimony of Agent Woodruff regarding ballistics and
firearms and that the circuit court erred by denying
Turner’s motion to suppress based on the claimed
unconstitutional roadblock. On October 8, 2019, the
circuit court entered its judgments reflecting the jury’s
verdicts and denied the J.N.O.V. Motion on October 14,
2019. Turner appeals his convictions and the order
denying the J.N.O.V. Motion.
ISSUES ON APPEAL
¶10. Turner raises the following issues on appeal,
which we address in turn: (I) whether there was
insufficient evidence to support the convictions for
Counts III and IV; (II) whether the circuit court erred
by allowing the State to present improper lay-opinion
evidence; (III) whether the circuit court erred by

8a
determining the roadblock was constitutional;
(IV) whether the circuit court erred by allowing the
district attorney to comment to the jury regarding
Turner’s decision to not call a witness; (V) whether the
circuit court erred by not requiring the State to produce
body- and dash-camera footage to Turner; and
(VI) whether the circuit court erred by overruling
Turner’s objection to the district attorney’s use of a
scaled drawing at trial that was not produced to
Turner.
STANDARD OF REVIEW
¶11. “When testing the sufficiency of the evidence, this
Court uses a de novo standard of review.” Sanford v.
State, 247 So. 3d 1242, 1244 (Miss. 2018) (citing
Brooks v. State, 203 So. 3d 1134, 1137 (Miss. 2016)).
Thus, “[t]he relevant question is whether ‘any rational
trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.’” Id. (internal
quotation marks omitted) (quoting Hearn v. State, 3
So. 3d 722, 740 (Miss. 2008)). And “[t]he evidence is
viewed in the light most favorable to the State.” Id.
(quoting Henley v. State, 136 So. 3d 413, 415 (Miss.
2014)).
¶12. Moreover, “[w]hen reviewing a trial court’s
decision to allow or disallow evidence, . . . we apply an
abuse of discretion standard.” Watts v. Radiator
Specialty Co., 990 So. 2d 143, 145-46 (Miss. 2008)
(internal quotation marks omitted) (quoting Canadian
Nat’l/Ill. Cent. R.R. v. Hall, 953 So. 2d 1084, 1094
(Miss. 2007)). “Therefore, the decision of a trial court
will stand ‘unless we conclude that the discretion was
arbitrary and clearly erroneous, amounting to an abuse

9a
of discretion.’” Miss. Transp. Comm’n v. McLemore,
863 So. 2d 31, 34 (Miss. 2003) (quoting Puckett v.
State, 737 So. 2d 322, 342 (Miss. 1999)). Furthermore,
“where questions of law are raised the applicable
standard of review is de novo.” Brown v. State, 731 So.
2d 595, 598 (Miss. 1999) (citing Bank of Miss. v. S.
Mem’l Park, Inc., 677 So. 2d 186, 191 (Miss. 1996)).
ANALYSIS
¶13. For the reasons discussed below, we hold that
each assignment of error lacks merit and, as a result,
we affirm Turner’s convictions and the circuit court’s
denial of Turner’s J.N.O.V. Motion.
I.

Sufficiency of the Evidence for Counts III
and IV

¶14. Turner argues that insufficient evidence was
presented at trial to support the jury’s guilty verdicts
on Counts III and IV for aggravated assault of a
law-enforcement officer and that “[t]he State wholly
failed to present any credible evidence to establish that
the Defendant did not act in necessary self-defense.”
The State instead argues that the proper question is “of
weight and credibility, not sufficiency, and it is to be
decided by the jury.”
¶15. Mississippi Code Section 97-3-7(2) provides that
(a) A person is guilty of aggravated assault if he
. . . (ii) attempts to cause or purposely or
knowingly causes bodily injury to another with
a deadly weapon or other means likely to
produce death or serious bodily harm . . . .

10a
(b) However, a person convicted of aggravated
assault upon any of the persons listed in
subsection (14) of this section under the
circumstances enumerated in subsection (14)
shall be punished by a fine of not more than Five
Thousand Dollars ($5,000) or by imprisonment
for not more than thirty (30) years, or both.
Miss. Code Ann. § 97-3-7(2) (Rev. 2020). Subsection
(14) provides that assault upon various enumerated
classes of individuals, including law-enforcement
officers acting within the scope of their “duty, office or
employment at the time of the assault . . . [,]” acts as an
aggravating factor under Section 97-3-7(2)(b). Miss.
Code Ann. § 97-3-7(14)(a) (Rev. 2020).
¶16. For Count III, the circuit court provided the
following jury instruction:
Brian Russell Turner is charged in Count III
with the felony offense of aggravated assault on
a law enforcement officer. If you find beyond a
reasonable doubt from the evidence in this case
that:
. . . On or about May 3rd, 2018, in
Tishomingo County;
Brian Russell Turner did knowingly and
purposely cause or attempt to cause bodily
injury to James Guthery;
With a deadly weapon, a gun; and

11a
At the time of the assault, James Guthery
was acting within the scope of his duty and/or
employment as a law enforcement officer; and
Brian Russell Turner was not acting in
necessary self-defense,
Then you shall find Brian Russell Turner
guilty as charged in Count III. If the prosecution
has failed to prove any one or more of these
listed elements beyond a reasonable doubt, then
you shall find him not guilty of Count III.
The circuit court provided an almost identical
instruction for Count IV regarding Turner’s aggravated
assault of Deputy Moore.
¶17. For the self-defense instruction, the circuit court
provided the following:
To make an assault justifiable on the grounds
of self-defense, the danger to the defendant must
be either actual, present, and urgent, or the
defendant must have reasonable grounds to
apprehend a design on the part of the other
person involved in the altercation to kill the
defendant or do him some great bodily harm,
and in addition to this, the defendant must have
reasonable grounds to apprehend that there is
imminent danger of such design being
accomplished. It is for the jury to determine the
reasonableness of the grounds upon which the
defendant acts.

12a
As to any count, if you find from the evidence
that Brian Russell Turner acted in self-defense,
then you must find him not guilty in such count.
If, however, you find from the evidence in
this case beyond a reasonable doubt that the
State has proven the necessary elements of
aggravated assault and that the defendant did
not act in necessary self-defense, you should find
the defendant guilty as charged.
The intent or purpose for an act is a question
to be determined by you, the jury, from
consideration of the evidence presented in this
case. In doing so, intent can be inferred from the
defendant’s actions, conduct, expressions, and
from the circumstances surrounding the charged
crime.
An aggressor is not entitled to assert the
defense of self-defense. As to any count, if you
find that Brian Russell Turner was the initial
aggressor in the series of events, then Brian
Russell Turner may not claim that he acted in
self-defense.
....
The apprehension or fear that will justify
assaulting another in self-defense must appear
objectively real to a reasonable person of average
prudence. Stated another way, the actor’s
apprehension must be objectively reasonable
before his assault is justified.

13a
¶18. Since Turner’s argument fails under both the
sufficiency-of-the-evidence and weight-of-the-evidence
standards, we find Turner’s first assignment of error to
be without merit. Again, for sufficiency, “[t]he relevant
question is whether ‘any rational trier of fact could
have found the essential elements of the crime beyond
a reasonable doubt.’” Sanford, 247 So. 3d at 1244
(internal quotation marks omitted) (quoting Hearn, 3
So. 3d at 740). Further, “[t]he evidence is viewed in the
light most favorable to the State.” Id. (quoting Henley,
136 So. 3d at 415). Officer Guthery testified that after
shooting at Turner in response to Turner raising a gun
and rocking toward him, Turner returned fire at him.
Deputy Moore corroborated Officer Guthery’s
testimony and testified that Turner shot at Deputy
Moore as well. It is undisputed that Officer Guthery
and Deputy Moore were law-enforcement officers
acting within the scope of their duties at the time
Turner shot at them. The jury heard the testimony of
Investigator Mitchell, Agent Woodruff and Amber
Conn, a crime-scene analyst with the Mississippi
Bureau of Investigation.
¶19. Specifically, Investigator Mitchell testified that
Turner gave a statement indicating that Deputy Moore
put a gun to Turner’s head. Agent Woodruff testified
that Turner told him that he was acting in self-defense
when he fired at Officer Guthery and Deputy Moore
and that, upon the initial stop, Deputy Moore “stuck a
gun in his face, ordered him out of the truck, and that
he first refused.” Turner also told Agent Woodruff that
“all law enforcement in Tishomingo County, as well as
the highway patrol, was out to kill him.” Turner
further told Agent Woodruff that he felt as though law

14a
enforcement had a plan to kill him for several years
and that Deputy Moore intentionally rammed his truck
and began shooting at him once their vehicles stopped
following the collision prior to seeing any firearm in
Turner’s possession.
¶20. Turner also told Agent Woodruff that Officer
Guthery and Deputy Moore were aiming for his head
when they were shooting at him. Agent Woodruff,
however, noted that Officer Guthery and Deputy Moore
likely would have shot Turner in the head if they were
in fact aiming at his head. When asked whether he
could tell the jury if Turner acted in self-defense, Agent
Woodruff testified, “I can tell you that based on what
he told me in his statement and the evidence collected
from the shell casing locations and the trajectories and
all that, that his statement was inaccurate and the
officers’ statement did line up with those type [sic] of
evidence.” Amber Conn, when asked whether she could
tell the jury if, based on her investigation of Deputy
Moore’s and Officer Guthery’s vehicles, Turner was
acting in self-defense, she responded, “No, I can’t.”
¶21. Given the testimony before the jury of Officer
Guthery that Turner rocked toward Officer Guthery
with a rifle drawn before Officer Guthery fired at
Turner in response, as well as Officer Guthery’s and
Deputy Moore’s testimony that Turner shot at each of
them, a rational trier of fact could, and indeed did, find
that each element of aggravated assault under
Mississippi Code Section 97-3-7(2)(b) was proved
beyond a reasonable doubt. See Scott v. State, 220 So.
3d, 957, 962 (Miss. 2017) (quoting Hardy v. State, 137
So. 3d 289, 303-04 (Miss. 2014)). Specifically, the

15a
testimony before the jury established that Turner
attempted to cause bodily injury to Officer Guthery and
Deputy Moore with a deadly weapon. Further, Turner’s
version of events provided to Agent Woodruff was not
sufficient to convince the jury that was given a
self-defense instruction that Turner was acting in
self-defense. Id. at 962-63 (recognizing that “[a]lthough
Scott’s testimony contradicts this version of events, his
testimony was not sufficient to convince the jury that
he was acting in self defense.”). Since, when viewing
the evidence in the light most favorable to the State, a
rational trier of fact could find that each element of
aggravated assault of a law-enforcement officer was
met here, we hold that sufficient evidence supported
Turner’s convictions on Counts III and IV.
¶22. Furthermore, and to the extent Turner’s argument
encompasses a challenge to the weight of the evidence
supporting his convictions, Turner’s convictions in
Counts III and IV were not against the weight of the
evidence. “When considering a challenge to the weight
of the evidence, we review the evidence in the light
most favorable to the verdict.” Scott, 220 So. 3d at 963
(citing Herring v. State, 691 So. 2d 948, 957 (Miss.
1997), disagreed with on other grounds by Dilworth v.
State, 909 So. 2d 731, 735 n.4 (Miss. 2005)). And the
Court “will only disturb a verdict when it is so contrary
to the overwhelming weight of the evidence that to
allow it to stand would sanction an unconscionable
injustice.” Id. (internal quotation mark omitted)
(quoting Bush v. State, 895 So. 2d 836 (Miss. 2005),
abrogated on other grounds by Little v. State, 233 So.
3d 288 (Miss. 2018)); see Little, 233 So. 3d at 292
(addressing the Court’s role in reviewing a decision to

16a
grant or deny a motion for new trial and the associated
task of “weigh[ing] the evidence in the light most
favorable to the verdict, ‘only disturb[ing] a verdict
when it is so contrary to the overwhelming weight of
the evidence that to allow it to stand would sanction an
unconscionable injustice’” (second alteration in
original) (quoting Lindsey v. State, 212 So. 3d 44, 45
(Miss. 2017))).
¶23. When viewed in the light most favorable to the
verdict, Turner’s convictions on Counts III and IV are
not so contrary to the overwhelming weight of the
evidence that allowing them to stand would sanction an
unconscionable injustice. Again, the jury had before it
the testimony of Officer Guthery and Deputy Moore
indicating that Turner shot at them. The jury also had
before it the testimony concerning Turner’s claim of
self-defense. The question of the objective
reasonableness of Turner’s apprehensions forming the
basis for his self-defense claims was left for the jury to
decide. Thus, when viewing the evidence in the light
most favorable to the guilty verdicts, allowing Turner’s
convictions to stand would not sanction an
unconscionable injustice but, rather, would simply
uphold the jury’s determination, after weighing the
evidence presented at trial, that Turner did not fire
upon the officers in self-defense. As a result, we also
hold that Turner’s convictions under Counts III and IV
are not against the overwhelming weight of the
evidence.
II.

Improper Lay-Opinion Evidence

¶24. In his second assignment of error, Turner argues
that Agent Woodruff’s opinion testimony regarding

17a
both the significance of finding taped-together firearm
magazines in Turner’s vehicle and conclusions
surrounding his observation of bullet-hole-trajectory
rods constituted improper lay-opinion evidence since
Agent Woodruff was not at any time offered or qualified
as an expert under Mississippi Rule of Evidence 702.
For the reasons discussed below, Turner’s second
assignment of error is without merit and, to the extent
the circuit court committed error by allowing Agent
Woodruff’s testimony, such error was harmless.
¶25. Rule 701 of the Mississippi Rules of Evidence
provides that
If a witness is not testifying as an expert,
testimony in the form of an opinion is limited to
one that is:
(a) rationally based on the witness’s
perception;
(b) helpful to clearly understanding the
witness’s testimony or to determining a fact in
issue; and
(c) not based on scientific, technical, or
other specialized knowledge within the scope of
Rule 702.
MRE 701. Rule 702 provides that
A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an opinion
or otherwise if:

18a
(a) the expert’s scientific, technical, or
other specialized knowledge will help the trier of
fact to understand the evidence or to determine
a fact in issue;
(b) the testimony is based on sufficient
facts or data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the
principles and methods to the facts of the case.
MRE 702.
¶26. Agent Woodruff, when questioned about the
purpose of taping two firearm magazines together
based on his experience as an investigator, highway
patrolman and Mississippi Bureau of Investigation
investigator, testified as follows:
These, it’s for a quick change operation. If you
notice how they are offset, this one is sticking up
higher, and, of course, it’s indented here. So
when you have one in the rifle and if you run
this magazine empty, you don’t have to go back
on your person or somewhere else to find
another one. It’s already right there. You can
just remove it, spin it, snap it right back in.
¶27. Turner’s defense counsel objected to Woodruff’s
testimony, stating that the testimony “should be
[struck] from the record unless it can be established
that Officer Woodruff is an expert in firearms. And I
think he is the criminal investigator in this case, Your

19a
Honor. That would be our objection.” The circuit court
overruled the objection, providing that
I think the witness has been qualified based on
his years as a law enforcement officer and
having graduated [from] the academy. He’s
testified generally about the insertion of
magazines into a weapon and what the impact of
taping them together would be. The testimony is
allowed.
¶28. Later, when questioned about the significance of
bullet trajectories in the Belmont Police Department
patrol car, Agent Woodruff testified that “[t]hat is the
location of where Officer Guthery was, and that also
indicates that Mr. Turner would have had to have been
outside of his truck near the front of his truck to get
that angle coming across.” Turner’s defense counsel
objected, requesting that the testimony be struck
“unless he can be qualified as some type of ballistics
expert.” The State responded that “he’s already had the
testing done by the experts. Now he’s testifying about
what his investigation revealed as a result of those – of
that testing, and we have had the people who
performed that test here to testify about it.” The circuit
court ultimately allowed Agent Woodruff “to testify to
what his investigation resulted in.”
¶29. Turner argues that his convictions should be
reversed since the circuit court allowed a lay witness,
and specifically a law-enforcement witness, to testify
regarding what Turner contends should be reserved for
the province of a ballistics expert. Further, Turner
argues that Agent Woodruff’s experience as a
law-enforcement agent informed his testimony

20a
regarding the firearm magazines and bullet trajectory,
which Turner believes is beyond the experience of an
average, randomly selected adult.
¶30. As Turner points out, “[t]his Court has held that,
‘[b]ecause the public hold police officers in great trust,
the potential harm to the objecting party requires
reversal where a police officer gives expert testimony
without first being qualified as such.’” Kirk v. State,
160 So. 3d 685, 693 (Miss. 2015) (second alteration in
original) (quoting Roberts v. Grafe Auto Co., Inc.,
701 So. 2d 1093, 1099 (Miss. 1997)). In Kirk, the Court
recognized that when “an issue to be determined at
trial was whether the injuries sustained by Casey were
caused by strangulation” and when a deputy testified
that it appeared Casey had been strangled, the same
opinion was “the sort of testimony properly reserved to
an expert.” Id. In Roberts, Officer Bitowf testified as
to the cause of an accident—the ultimate issue at trial.
Roberts, 701 So. 2d at 1098-99. Here, however, the
ultimate issues to be determined at trial were whether
Turner committed aggravated assault on a
law-enforcement officer, whether he failed to stop his
vehicle pursuant to the signal of law-enforcement and
whether he possessed a firearm as a felon.
¶31. We hold that the circuit court did not err by
overruling Turner’s objection to Agent Woodruff’s
testimony regarding taped-together firearm magazines,
as no specialized knowledge of firearms or firearms
training is required to arrive at Agent Woodruff’s
conclusion; therefore, his testimony was not
expert-opinion testimony covered by Rule 702. Stated
differently, no expert testimony is required to opine

21a
about the utility of taping firearm magazines together
and the ultimate result—the ability to more quickly
reload a gun. Such testimony, rather, is common sense.
Moreover, Agent Woodruff’s opinion was based on his
rational observations of the firearm magazines. Thus,
Agent Woodruff’s testimony was lay-opinion testimony,
and the circuit court did not err by overruling Turner’s
objection.
¶32. Even assuming, arguendo, that the circuit court
did err by allowing the testimony, unlike in Kirk and
Roberts, Agent Woodruff’s discussion of the benefit of
taping firearm magazines together has no bearing on
whether Turner committed aggravated assault or acted
in self-defense. In other words, Turner was not
prejudiced by Agent Woodruff’s testimony regarding
the firearm magazines and, therefore, any potential
error resulting from the admission of Agent Woodruff’s
testimony was harmless. See Davis v. State, 18 So. 3d
842, 850 (Miss. 2009) (“Harmless errors are those
which in the setting of a particular case are so
unimportant and insignificant that they may,
consistent with the Federal Constitution, be deemed
harmless, not requiring the automatic reversal of the
conviction.” (internal quotation marks omitted)
(quoting Williams v. State, 991 So. 2d 593, 599 (Miss.
2008))). Indeed, the existence of taped-together firearm
magazines and Agent Woodruff’s opinion about the
purpose of taping them together do not help to prove or
disprove any elements of the crimes Turner was
charged with.
¶33. Moreover, Agent Woodruff’s testimony concerning
his observations of the bullet-hole-trajectory rods

22a
placed by a crime-scene analyst fell within permissible
lay-opinion testimony under Rule 701; thus, the circuit
court did not abuse its discretion by overruling
Turner’s objection. Agent Woodruff, when asked about
the significance of the trajectory of the bullets fired,
stated, “[t]hat is the location of where Officer Guthery
was, and that also indicates that Mr. Turner would
have had to have been outside of his truck near the
front of his truck to get that angle coming across.” After
the circuit court overruled Turner’s objection on the
basis that Agent Woodruff was not qualified as a
ballistics expert, Agent Woodruff opined as to the
significance of a lack of projectile defects, or bullet
holes, in the Tishomingo County patrol car:
because if this was Deputy Moore, which, again,
was the first one that Mr. Turner stated was
approaching him to fire at his vehicle, returning
fire in the direction of Deputy Moore, if he was
in his patrol car, at his patrol car, there should
be defects on the patrol car as well, and there
was not.
¶34. We hold that the circuit court did not abuse its
discretion by overruling Turner’s objection to Agent
Woodruff’s testimony since his testimony is not expert
testimony within the meaning of Rule 702. Indeed,
Agent Woodruff’s opinion regarding Turner’s location
that would be necessary to achieve a certain
bullet-hole-entry angle does not require specialized
knowledge of ballistics. Rather, Agent Woodruff’s
testimony amounted simply to his opinion that was
rationally based on his perception of the crime scene
and the trajectory information received from Amber

23a
Conn and Dywana Broughton, the two crime-scene
analysts that provided the evidence of the bullet-hole
angles. Moreover, Agent Woodruff’s testimony was also
helpful to understand the previously elicited testimony
of both Conn and Broughton. In sum, it is clear that no
specialized knowledge was required for Agent Woodruff
to testify that if the trajectory angles provided by Conn
and Broughton are believed, then Turner would have
likely been at a certain location when shooting.
¶35. Further, Agent Woodruff’s opinion, while arguably
speculative, that if Turner were to be believed, there
would likely be bullet-hole damage to Deputy Moore’s
car if Deputy Moore in fact approached Turner to fire
at his vehicle does not require scientific, technical or
specialized knowledge subject to Rule 702. Instead,
Agent Woodruff’s opinion was rationally based on his
observation of the crime scene and bullet-holetrajectory rods and was helpful to understand his
testimony, as well as the testimony of Conn and
Broughton, the crime-scene analysts that, at the time
Agent Woodruff testified, had already testified about
the bullet-hole-trajectory angle information. Moreover,
Agent Woodruff’s testimony can be simplified as
follows: a lay opinion as to his interpretation of the
significance of the location of the bullet-hole-trajectory
rods with respect to the location of Deputy Moore’s
vehicle based upon his own review of the rods and
Broughton’s testimony regarding her trajectory-rod
analysis.2 In other words, it required no specialized

2

In his dissent, Presiding Justice King, analyzing the language
quoted from Agent Woodruff’s testimony in paragraph 33 of this
opinion, posits that “Agent Woodruff’s testimony regarding the

24a
knowledge to opine on Agent Woodruff’s own logical
conclusion that if Deputy Moore did, in fact, as Turner
had claimed, first point a gun at Turner’s head while
approaching Turner from Deputy Moore’s vehicle, when
Turner fired back, there would have been damage to
Deputy Moore’s patrol car.
III.

Constitutionality of the Roadblock

¶36. For his third assignment of error, Turner argues
that the roadblock was unconstitutional and, therefore,

trajectory of the projectiles and the positions of the officers also
constituted expert testimony.” Diss. Op. ¶ 62. Further, Presiding
Justice King states that “[a]n average person certainly would not
be able to determine the location of the shooters by looking at
bullet holes in vehicles.” Diss. Op. ¶ 62. While Presiding Justice
King’s observation about the ability of average persons to discern
the location of shooters based only on bullet holes in vehicles is
likely sound, Agent Woodruff did not base his testimony or opinion
as to the location of Turner and the law-enforcement officers at
this shootout only on bullet holes in vehicles. As discussed above,
Agent Woodruff’s testimony was based on his observation of bullethole-trajectory rods placed within the bullet holes by crime-scene
analyst Dywana Broughton. Broughton’s testimony detailing the
methods used in placing the trajectory rods that makes clear the
angles at which the bullets struck the vehicles is not subject to
Turner’s appeal. Agent Woodruff’s observation of these rods,
coupled with his examination of the crime scene, formed the basis
for his opinion, which did not require specialized knowledge that
would bring his testimony within the ambit of Rule 702. Indeed, an
average person would certainly be able to determine the location
of the shooters when presented with both a crime scene and
bullet-hole-trajectory rods. To hold otherwise would require us to
accept the premise that an average person is not privy to the fact
that bullets travel in a relatively straight line from the barrel of a
gun or that the shooter’s location could be discerned by observing
the angle at which a bullet entered the vehicles.

25a
any evidence obtained subsequent to the roadblock
should have been suppressed. As a result, Turner
argues that the circuit court erred by denying Turner’s
motion to suppress. “It is well-settled law that the
Fourth Amendment of the United States Constitution
‘applies to all seizures of the person, including seizures
that involve only a brief detention short of traditional
arrest.’” McLendon v. State, 945 So. 2d 372, 379
(Miss. 2006) (quoting Brown v. Texas, 443 U.S. 47, 50,
99 S. Ct. 2637, 61 L. Ed. 2d 357 (1979)). The same
seizure must “be ‘reasonable.’” Id. (quoting Brown, 443
U.S. at 50).
¶37. Further, the Court “must consider the required
balancing test in determining the issue of
reasonableness outlined in Brown.” Id. This test
“weighs ‘the gravity of the public concerns served by
the seizure, the degree to which the seizure advances
the public interest, and the severity of the interference
with individual liberty.’” Id. (quoting Brown, 443 U.S.
at 50-51). Stated differently, “[t]he reasonableness of
seizures that are less intrusive than a traditional
arrest . . . depends on a balance between the public
interest and the individual’s right to personal security
free from arbitrary interference by law officers.” Id.
(alterations in original) (internal quotation marks
omitted) (quoting Brown, 443 U.S. at 50).
¶38. While the Fourth Amendment protects a person
from unreasonable searches and seizures, Turner has
not alleged that a Fourth Amendment seizure occurred
at the roadblock. Indeed, he even admits no such

26a
seizure occurred.3 Therefore, since no facts indicate a
seizure occurred at the roadblock, a fact Turner admits,
Turner’s argument is not well-taken, and we decline to
address the constitutionality of the roadblock on
appeal. See, e.g., City of Indianapolis v. Edmond,
531 U.S. 32, 40, 121 S. Ct. 447, 148 L. Ed. 2d 333
(2000) (“It is well established that a vehicle stop at a
highway checkpoint effectuates a seizure within the
meaning of the Fourth Amendment.” (citing Mich.
Dep’t of State Police v. Sitz, 496 U.S. 444, 450, 110
S. Ct. 2481, 110 L. Ed. 2d 412 (1990))).
¶39. Additionally, we hold that the trial court did not
abuse its discretion by denying Turner’s motion to
suppress, since no unreasonable seizure occurred when
Deputy Moore followed and ultimately stopped Turner.
Turner concedes that “[t]his Court has ruled when a
motorist evades a police roadblock, the police may stop
them and check the validity of their license tag, and
inspection sticker.” Indeed, “[w]hen a motorist evades
a police roadblock we have recognized that police may
stop them and check the validity of their license tag,
and inspection sticker.” Boches v. State, 506 So. 2d
254, 264 (Miss. 1987) (citing Morgan v. Town of
Heidelberg, 246 Miss. 481, 150 So. 2d 512, 516 (Miss.
1963)).

3

In fact, in his argument attacking the constitutionality of the
roadblock under the Fourth Amendment, Turner admits that he
was not seized at the roadblock. (“Though the Defendant did not
actually experience a ‘seizure’ at the roadblock, the illegality of the
roadblock should require the suppression of any evidence related
thereto.”).

27a
¶40. Deputy Moore followed Turner to check the
validity of his tags after Turner turned around prior to
entering the roadblock. Therefore, under Boches,
Deputy Moore’s seizure of Turner in the initial traffic
stop did not result in a violation of Turner’s Fourth
Amendment rights against unreasonable seizures.
Further, Deputy Moore had probable cause sufficient to
satisfy the Fourth Amendment prior to initiating the
stop. “In Whren v. United States, the United States
Supreme Court stated that, generally, ‘the decision to
stop an automobile is reasonable where the police have
probable cause to believe that a traffic violation has
occurred’ regardless of the officer’s subjective intent.”
Martin v. State, 240 So. 3d 1047, 1051 (Miss. 2017)
(quoting Harrison v. State, 800 So. 2d 1134, 1138
(Miss. 2001) (quoting Whren v. United States, 517
U.S. 806, 810, 116 S. Ct. 1769, 135 L. Ed. 2d 660
(1979))). In other words, “when a police officer
personally observes a driver commit what he
reasonably believes is a traffic violation, he then has
probable cause to stop the vehicle.” Id. at 1052.
¶41. Deputy Moore, before following Turner for turning
around before the roadblock, observed that Turner’s tag
light was out and, upon further investigation, realized
that Turner’s tag was expired. Therefore, in addition to
witnessing Turner turning around before the
roadblock, Deputy Moore personally observed Turner
commit what he reasonably believed to be a traffic
violation and, as a result, had probable cause to stop
Turner’s vehicle. Turner’s third assignment of error is
therefore without merit.

28a
IV.

The State’s Comment Regarding Turner’s
Failure to Call a Witness

¶42. In his fourth assignment of error, Turner argues
that the circuit court erred by allowing the State,
during its closing argument, to comment on Turner’s
failure to call Officer Belue as a witness. Because
Turner’s counsel first commented on the State’s failure
to call Officer Belue to testify prior to the State’s
comment on Turner’s failure to do so, we find that
Turner’s fourth assignment of error lacks merit. As
Turner correctly notes, we have held that “the failure
of either party to examine a witness equally accessible
to both is not a proper subject for comment before a
jury by either of the parties.” Morgan v. State, 388 So.
2d 495, 498 (Miss. 1990) (internal quotation mark
omitted) (quoting Phillips v. State, 183 So. 2d 908,
911 (Miss. 1966), overruled on other grounds by
Harrison v. State, 534 So. 2d 175 (Miss. 1988)). Even
so, the circuit court correctly pointed out that Turner,
in first speculating as to the reasons for the
prosecution’s failure to call Officer Belue as a witness,
opened the door for the prosecution to do the same. In
response, Turner’s counsel withdrew the objection.
¶43. Following the objection withdrawal, Turner’s
counsel objected to the following speculative comment
from the State: “And he said we couldn’t know what –
he didn’t know what he would have to say about
Rodney Belue’s testimony if he was here. I do. You do.
He would say he’s another one of these bad apples.”
The circuit court sustained Turner’s second objection,
and Turner’s counsel neither requested an admonition
to the jury nor a peremptory instruction. “When a trial

29a
court sustains an objection it cures any error.”
Holland v. State, 705 So. 2d 307, 335 (Miss. 1997).
Thus, any error allegedly caused by the State’s
comment regarding Turner’s failure to call Officer
Belue in its closing argument was cured. As a result,
Turner’s argument regarding this assignment of error
is without merit.
V.

Discovery of Body Cameras

¶44. Since the circuit court ordered law-enforcement
agencies to produce any and all body-camera and/or
dash-camera footage that they possessed and since
multiple law-enforcement witnesses testified that the
agencies were not in possession of any body- and/or
dash-camera footage, Turner’s fifth assignment of error
also lacks merit. Again, the circuit court ordered the
State “to provide all evidence, including dash cam
video, that they have in their possession or through
reasonable means of investigation can uncover.” The
circuit court went a step further, ordering that the
State provide any exculpatory material covered by
Brady, 373 U.S. 83, to the defense as well.
¶45. Turner correctly points out that the Court, in
Hentz v. State, 489 So. 2d 1386, 1388 (Miss. 1986),
held that “as a matter of good practice and sound
judgment in the trial of criminal cases, prosecuting
attorneys should make available to attorneys for
defendants all such material in their files and let the
defense attorneys determine whether or not the
material is useful in the defense of the case.” The
problem with Turner’s argument, however, is that the
State did not refuse to produce body- and/or
dash-camera footage. Instead, each relevant

30a
law-enforcement witness for the State testified under
oath that footage from body and/or dash cameras was
not available. Therefore, we decline Turner’s request to
hold that “[t]he Circuit Court erred in not requiring the
State to provide the body camera to Mr. Turner, prior
to trial.” The circuit court did exactly what Turner
requested—it required the State to turn over any bodyand/or dash-camera footage to the defense.
VI.

Turner’s Objection to the Use of a Scaled
Drawing

¶46. In his sixth and final assignment of error, Turner
argues that the circuit court erred by allowing the
State to use, over Turner’s objection, a not-to-scale
demonstrative in front the jury depicting the “accident
and or shooting scene on Joel Cemetery Road” that was
not provided to Turner prior to trial. Turner points to
Mississippi Rule of Criminal Procedure 17, which he
argues required the disclosure of the demonstrative to
the defense prior to trial.
¶47. Rule 17.2 provides that
Subject to the exceptions of Rule 17.6(a) and
17.7, the prosecution must disclose to each
defendant or to the defendant’s attorney, and
permit the defendant or defendant’s attorney to
inspect, copy, test, and photograph upon written
request and without the necessity of court order,
the following which is in the possession, custody,
or control of the State, the existence of which is
known or by the exercise of due diligence may
become known to the prosecution:

31a
(1) Names and addresses of all witnesses in
chief proposed to be offered by the prosecution at
trial, together with a copy of the contents of any
statement (written, recorded or otherwise
preserved) of each such witness and the
substance of any oral statement made by any
such witness;
(2) Copy of any written or recorded statement
of the defendant and the substance of any oral
statement made by the defendant;
(3) Copy of the criminal record of the
defendant;
(4) Any reports, statements, or opinions of
experts (written or otherwise preserved) made in
connection with the particular case and the
substance of any oral statement made by any
such expert;
(5) Any physical evidence, photographs, and
data or information that exists in electronic or
magnetic form relevant to the case or which may
be offered in evidence; and
(6) Any exculpatory material concerning the
defendant.
Upon a showing of materiality to the
preparation of the defense, the court may
mandate such other discovery to the defendant’s
attorney as justice may require.
MRCrP 17.2.

32a
¶48. The State offered the scaled drawing of the crime
scene as a demonstrative only. The circuit court
recognized this fact:
For the record, the prosecution put forward an
exhibit. It is a white magnetic dry erase board
presented with what looks to be handwritten
documentation describing the scene of the crime,
the alleged crime. There are magnetic
automobiles, replicas, three of which have been
used by the prosecution to move around the
board for use in describing the scene.
The use of this exhibit was objected to by the
defense and overruled by the Court. And the
defense may use the exhibit as well,
demonstrative evidence, which was the finding
that I made that it’s being used for that only.
Although Turner neither argued nor did the circuit
court discuss Rule 17 during trial, the plain language
of Rule 17.2 does not address nor require the
production of demonstratives prior to trial.
¶49. Furthermore, “[t]he admission of ‘reasonably
necessary and material’ demonstrative evidence is
within the discretion of the trial court.” Lewis v. State,
725 So. 2d 183, 189 (Miss. 1998) (quoting Murriel v.
State, 515 So. 2d 952, 956 (Miss. 1987)). To that end,
the trial judge is generally given “broad discretion in
ruling upon the admissibility of many types of
demonstrative evidence.” Id. (internal quotation mark
omitted) (quoting Murriel, 515 So. 2d at 956). Given
the wide latitude afforded to a trial court’s decision to
admit demonstrative evidence, the circuit court did not

33a
abuse its discretion by allowing the use of the
demonstrative and by overruling Turner’s objection
based on the State’s failure to produce demonstrative
evidence prior to trial. Therefore, Turner’s sixth and
final assignment of error lacks merit.
CONCLUSION
¶50. Each of Turner’s assignments of error lack merit.
Therefore, we affirm Turner’s convictions and the
circuit court’s denial of Turner’s J.N.O.V. Motion.
¶51. AFFIRMED.
RANDOLPH, C.J., COLEMAN, MAXWELL,
BEAM, ISHEE AND GRIFFIS, JJ., CONCUR.
KING, P.J., DISSENTS WITH SEPARATE
WRITTEN OPINION JOINED BY KITCHENS, P.J.
KING, PRESIDING JUSTICE, DISSENTING:
¶52. Because I would find that the trial court
committed reversible error by allowing Agent Keith
Woodruff to present improper expert-opinion
testimony, I respectfully dissent.
¶53. “The admission of expert testimony is addressed
to the sound discretion of the trial judge. Unless we
conclude that the decision was arbitrary and clearly
erroneous, amounting to an abuse of discretion, that
decision will stand.” Seal v. Miller, 605 So. 2d 240,
243 (Miss. 1992) (citing Hooten v. State, 492 So. 2d
948, 950-51 (Miss. 1986)). Mississippi Rule of Evidence
701 provides,

34a
If a witness is not testifying as an expert,
testimony in the form of an opinion is limited to
one that is:
(a) rationally based on the witness’s perception;
(b) helpful to clearly understanding the
witness’s testimony or to determining a fact in
issue; and
(c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule
702.
MRE 701. Mississippi Rule of Evidence 702 states,
A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an opinion
or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of fact
to understand the evidence or to determine a
fact in issue;
(b) the testimony is based on sufficient facts or
data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles
and methods to the facts of the case.
MRE 702. Therefore, “[b]efore providing expert opinion
testimony, a witness must be qualified, tendered, and
accepted as an expert under Rule 702 of the Mississippi

35a
Rules of Evidence.” Chaupette v. State, 136 So. 3d
1041, 1045 (Miss. 2014) (citing Cotton v. State, 675
So. 2d 308, 312 (Miss. 1996)).
¶54. This Court previously has found that an
investigator’s testimony regarding gang activity
constituted expert testimony because the testimony
“was based on specialized knowledge under Mississippi
Rule of Evidence 702, because an average, randomly
selected adult likely would not be able to identify the
Black Disciples or testify about the difference between
a gang member and a ‘hang-around.’” Croft v. State,
283 So. 3d 1, 10 (Miss. 2019). This Court rejected the
State’s argument that the investigator was merely a
lay witness “because his testimony was based on his
personal observations of the facts gathered during his
investigation and his ‘first-hand knowledge’ obtained
over several years working as a gang investigator in
Meridian.” Id. Additionally, in Roberson v. State, this
Court held that an investigator’s testimony that
“following his investigation he did not think [the
victim] was ‘killed in the wreck’” was expert testimony.
Roberson v. State, 569 So. 2d 691, 696 (Miss. 1990).
¶55. At Turner’s trial, counsel for the State showed
Agent Woodruff three gun magazines that had been
taped together with electrical tape. Counsel then
asked, “[d]oes your training and experience as an
investigator and as a highway patrolman and an
investigative agent of the Mississippi Bureau of
Investigation, based on all of that, what is the purpose
of taping magazines together like that?” Agent
Woodruff responded:

36a
These, it’s for a quick change operation. If you
notice how they are offset, this one is sticking up
higher, and, of course, it’s indented here. So
when you have one in the rifle and if you run
this magazine empty, you don’t have to go back
on your person or somewhere else to find
another one. It’s already right here. You can just
remove it, spin it, snap it right back in.
Turner’s counsel objected and argued that the
preceding testimony should be struck unless it could be
established that Agent Woodruff was an expert in
firearms. The trial court overruled the objection and
stated, “I think the witness has been qualified based on
his years as a law enforcement officer and having
graduated [from] the academy. He’s testified generally
about the insertion of magazines into a weapon and
what the impact of taping them together would be. The
testimony is allowed.”
¶56. “Where, in order to express the opinion, the
witness must possess some experience or expertise
beyond that of the average, randomly selected adult, it
is a M.R.E. 702 opinion and not a [Rule] 701 opinion.”
Langston v. Kidder, 670 So. 2d 1, 3-4 (Miss. 1995)
(citing Miss. State Highway Comm’n v. Gilich, 609
So. 2d 367, 377 (Miss. 1992)). Because knowledge of
“quick change operation[s]” requires special knowledge
that a lay person would not be expected to know, I
would find that Agent Woodruff’s testimony should
have been considered expert testimony. Agent
Woodruff testified that the magazines were “offset, this
one is sticking up higher, and, of course, it’s indented
here. So when you have one in the rifle and if you run

37a
this magazine empty, you don’t have to go back on your
person . . . . You can just remove it, spin it, snap it
right back in.” An average, randomly selected person
likely would not possess knowledge of “quick change
operation[s]” or the intricacies of the indention of
magazines.
¶57. The prosecution’s line of questioning further
supports the conclusion that Agent Woodruff
improperly presented expert testimony under the guise
of lay-opinion evidence. The prosecution prefaced its
question regarding the testimony of taped-together
magazines with “[d]oes your training and experience as
an investigator and as a highway patrolman and an
investigative agent of the Mississippi Bureau of
Investigation, based on all of that . . . .” Yet “[a] lay
witness’s unique qualifications have no bearing on the
witness’s ability [to] give a lay opinion.” Collins v.
State, 172 So. 3d 724, 739 (Miss. 2015) (internal
quotation marks omitted) (quoting Heflin v. Merrill,
154 So. 3d 857, 863 (Miss. 2014)). Therefore, I would
find that the trial court erred by allowing Agent
Woodruff to present evidence regarding the
taped-together magazines.
¶58. I disagree with the majority’s conclusion that any
error was harmless. This Court has clearly stated that
“because ‘the public hold police officers in great trust,
the potential harm to the objecting party requires
reversal where a police officer gives expert testimony
without first being qualified as such.’” Id. (quoting
Kirk v. State, 160 So. 3d 685, 693 (Miss. 2015)). Agent
Woodruff clearly was an officer of the law and his
opinion held great sway with the jury. Thus, the

38a
potential harm resulting from his testimony cannot be
considered harmless.
¶59. Agent Woodruff’s testimony ran “afoul of our
stated policy requiring that expert witnesses be first
tendered as such before being allowed to express expert
opinions.” Sample v. State, 643 So. 2d 524, 529 (Miss.
1994) (citing Roberson, 569 So. 2d at 696). “To
sanction this testimony attempts to circumvent this
policy by the familiar retreat to [Rule] 701, which some
attorneys would use to justify all transgressions of our
discovery and evidentiary policies concerning expert
opinion.” Id. Accordingly, I would find that the
admission of Agent Woodruff’s testimony without first
qualifying him as an expert cannot be considered
harmless. I submit that this issue requires reversal.
¶60. Likewise, Agent Woodruff was allowed to testify
regarding the location of the officers while they were
firing at Turner, testimony of which he had no
firsthand knowledge. Agent Woodruff testified as
follows:
So this would be Deputy Moore’s rounds. And
then he also indicated how that Officer Guthery
was approaching his vehicle firing rounds on me
as well when he came up.
This – the yellow ones here indicating the .40
caliber rounds, this is all Officer Guthery’s shell
casings. Now, this was Officer Guthery’s patrol
car and Mr. Turner’s pickup.
So what stands out – one of the things that
stands out here is had Officer Guthery been
approaching the side of Mr. Turner’s pickup

39a
firing at him, then the shell casings that are
marked in yellow, there would be some up here
in this area in the front of his patrol unit.
Instead, Officer Guthery’s statement that he
typed up and gave to us indicated that he then
was immediately retreated, that whenever he
saw a rifle come up inside the pickup, he began
firing as he was retreating.
The weapon that Officer Guthery had is going to
eject up and right, by the way. So when he is
standing here, this is going to be his shell
casings.
Another thing that is important is Officer
Guthery talking about being at the rear of his
patrol car. There was a projectile that was
recovered from the rear of Officer Guthery’s
patrol car that came out of Officer Guthery’s
own gun. So that verifies to us that he, indeed,
was at the rear of his patrol car.
....
The other things that’s talking about Deputy
Moore, these green indicate Deputy Moore’s
shell casings, which these will coincide actually
with trajectory that was taken from Mr.
Turner’s pickup showing the angles of the
rounds coming from Deputy Moore. He was not
right up on the pickup, for one. And you can see
these over here, which, again, Deputy Moore’s
statement to us was when he was – when he felt
like he was under fire, he was retreating to the
bridge. These two shell casings here, again,

40a
corroborate Deputy Moore’s statement by
finding them at the location that he stated that
he was at.
¶61. The prosecution then asked,”[a]nd when Dywana
Broughton performed the trajectory analysis to the
entrance defects on the driver’s side of the suspect’s
truck, what was the trajectory of those?” Agent
Woodruff responded, “[t]hey were showing right to left,
front to back. In other words, when you’re standing
looking at that pickup on this side, they would be
coming from the right to the left, front to back, at an
angle.” The prosecution then again stated, “[b]ased on
your training and experience as an investigator, would
that angle be the same if he was approaching the
driver’s side door attempting to shoot Mr. Turner? . . .
How does that – if you know, how does that trajectory
relate to the defendant’s version of what happened?”
Agent Woodruff responded that “[i]t opposes it.”
¶62. The testimony continued, and the prosecution
asked whether Amber Conn had performed a trajectory
analysis on one of the patrol cars. Agent Woodruff
responded that she had and stated,
Indicated front passenger – you said passenger.
Some people say right or left. Just to clarify, the
front passenger trajectory to right driver’s side
rear. . . . That is the location of where Officer
Guthery was, and that also indicates that Mr.
Turner would have had to have been outside of
his truck near the front of his truck to get that
angle coming across.

41a
Counsel for Turner again objected and asked that the
testimony be struck unless Agent Woodruff could be
qualified as a ballistics expert. The trial court allowed
Agent Woodruff “to testify to what his investigation
resulted in.” In my opinion, Agent Woodruff’s testimony
regarding the trajectory of the projectiles and the
positions of the officers also constituted expert
testimony. See Parvin v. State, 113 So. 3d 1243, 1249
(Miss. 2013). An average person certainly would not be
able to determine the location of the shooters by
looking at bullet holes in vehicles. Additionally, the
prosecution again prefaced its question by asking
Agent Woodruff to speculate based on his training and
experience.4

4

The majority states that “an average person would certainly be
able to determine the location of the shooters when presented with
both a crime scene and bullet-hole-trajectory rods.” Maj. Op. ¶ 35
n.2.Yet trajectory rods are not something an average person
utilizes. The majority would make it seem as simple as sticking
a stick in a bullet hole and determining which direction it faced.
However, whether the rods accurately depicted the trajectory of
the bullets would depend on whether the correct size rod was used,
whether the rod was inserted into the bullet hole correctly,
whether an improperly inserted rod had changed the size or shape
of the bullet hole, etc. Although Agent Woodruff was not the person
who placed the trajectory rods, Agent Woodruff’s experience and
knowledge with his position at the Mississippi Bureau of
Investigation assisted him in making those determinations. Thus,
Agent Woodruff presented expert testimony. Additionally, Agent
Woodruff’s testimony was not simply that the bullets came from a
general direction. He testified to the positions of the shooters based
on the directions of the trajectory rods, which required advance
measurements and involved the specialized training and
experience that falls under Rule 702.

42a
¶63. This error also cannot be considered harmless.
Turner’s defense rested on the contention that law
enforcement first fired upon him and that he returned
fire only in self defense. However, Agent
Woodrufftestified that Turner could not have been
inside his truck, returning fire in self-defense. He
stated that Turner “would have had to have been
outside of his truck near the front of his truck to get
that angle coming across.” Therefore, his testimony
negated Turner’s version of events.
¶64. The jury heard a member of law enforcement, who
had not been qualified as an expert, testify as to the
meaning of a quick-change operation with
taped-together magazines and testify that Turner was
outside of his truck firing at the officers and agents
based on the trajectory of bullets. Therefore, I would
find that the trial court committed reversible error by
allowing Agent Woodruff to testify to scientific,
technical, and specialized knowledge without first
being qualified as an expert. Accordingly, I dissent.
KITCHENS, P.J., JOINS THIS OPINION.

43a

APPENDIX B
IN THE CIRCUIT COURT OF TISHOMINGO
COUNTY, MISSISSIPPI
CAUSE NO. CR 18-187
[Filed: November 19, 2019]
_______________________________________
STATE OF MISSISSIPPI
)
)
VS.
)
)
BRIAN R. TURNER
)
)
DEFENDANT
)
_______________________________________)
ORDER DENYING MOTION FOR J.N.O.V.
OR, IN THE ALTERNATIVE,
MOTION FOR NEW TRIAL
The above styled and numbered cause of action is
currently before the Court on the Defendants Motion
for J.N.O.V. or, in the Alternative, Motion for New
Trial. Following a careful review of the Defendant’s
Motion as well as the record in this matter, the Court
now finds the Motion is not well taken and shall be
denied.
IT IS THEREFORE ORDERED AND
ADJUDGED that the Defendant’s Motion for J.N.O.V.
or, in the Alternative, Motion for New Trial shall be,
and the same is hereby, DENIED.

44a
ORDERED AND ADJUDGED on this ___ day of
October, 2019.
/s/
KELLY L. MIMS
CIRCUIT JUDGE
[SEAL]

45a

APPENDIX C
IN THE CIRCUIT COURT OF MISSISSIPPI
FOR TISHOMINGO COUNTY
Case No. CR-18-187
[Filed: October 9, 2018]
____________________________________
STATE OF MISSISSIPPI
)
Appellant,
)
)
v.
)
)
BRIAN TURNER
)
Appellee.
)
____________________________________)
Decided October 8, 2019
Before: MIMMS, Circuit Judge.
_____________
Cross-Examination of Derrick Earnest at Trial
_____________
BY MR. STUART:
Q. Good afternoon, Officer Earnest. How are you today?
A. Good, sir.
Q. We’ve met each other quite a few times, haven’t we?
A. Yes, sir.

46a
Q. I’m Drew Stuart from Tupelo.
A. Yes, sir.
Q. You mentioned a moment ago, Trooper Earnest, that
you had a—you’ve had a prior relationship with Officer
Moore. I mean, y’all have been friends for some time?
A. Yes, sir. I just -- during high school as an
acquaintance. I knew more of the girl he dated at the
time, and I met him, like, once or twice later. But later
on through my career, come to find out he was in law
enforcement, and I got to know him when he was at
Itawamba.
Q. All right. But you’ve known him since high school?
A. Yeah, just the name. I knew who he was.
Q. Y’all went to high school together?
A. No, sir.
Q. You just knew him?
A. I knew of him, yes, sir.
Q. I’m going to take you back to May the 3rd, 2018.
A. Yes, sir.
Q. You had set up a roadblock at Northside and 25 in
Belmont, correct?
A. Q. No, sir. We set up a checkpoint.
Q. Well, you were stopping cars that were driving
through, correct?
A. Yes, sir.

47a
Q. And you were in the middle of the road, correct?
A. Yes, sir.
Q. What notice did you put out on the side of the road
to let drivers know that they were approaching a safety
checkpoint?
A. There was no notice.
Q. You didn’t put any signs out to tell drivers they were
approaching a safety checkpoint and they have to stop?
A. No, sir.
Q. Did you run it in the paper –
A. No, sir. –
Q. to let drivers know?
A. No, sir.
Q. You also didn’t put it on the news to let drivers
know that when they are traveling down Highway 25
they had to stop at Northside and No. 25, did you?
A. No, sir.
Q. And isn’t it true, I believe you said that where Mr.
Turner turned was about a thousand feet away. Didn’t
you say that?
A. Yes, sir. I caught myself today when I was 4 coming
up here, I counted the lines, and just a rough estimate,
yes, sir.
Q. About a thousand feet?

48a
A. I believe that’s right. The lines are ten feet and 30
feet gaps, yes, sir.
Q. And isn’t it true, Trooper Earnest, that a rear tag
lamp only has to be visible on a passenger vehicle at 50
feet? Isn’t that true?
A. Fifty -- I’m not familiar of the exact footage. I just
know it’s required to have one.
Q. Well, if I told you Mississippi Code Annotated
Section 63-7-13 only requires that a rear lamp be
construed and placed as to illuminate with a white
light the rear registration plate and render it clearly
readable from a distance of 50 feet to the rear, you
wouldn’t disagree with that, would you?
A. I wouldn’t, but it still has to be presented to be able
to read it.
Q. I’m sorry, sir?
A. The light would still have to be there for you to read
the tag at any distance.
Q. There was nothing, isn’t it true, Officer Earnest, to
distinguish or differentiate your safety checkpoint from
a car accident, was it, if you’re a thousand feet away?
There is no way to know, was it?
A. I would say not.
Q. So it would be reasonable, wouldn’t it, sir, for
someone to believe what they are approaching is a car
accident?
A. It’s possible, yes, sir.

49a
Q. Isn’t it equally true, Officer Earnest, on the night in
question you did not see Officer Jason Moore make a
stop of Brian Turner in this case, did you?
A. That’s correct.
Q. It is also true, Trooper Earnest, that you did not see
anybody fire a weaponon the night in question, did
you?
A. That’s correct.
Q. You did not see Brian Turner fire a weapon on in
question, did you?
A. I did not.
Q. You did not see James Guthery fire a weapon on the
night in question, did you, sir?
A. I did not.
Q. Isn’t it true, also, sir, you did not see Jason Moore
fire a weapon on the night in question?
A. I did not.
Q. Isn’t it equally true, Officer Earnest, that you did
not see the car accident at issue? You did not see that
happen, did you?
A. Not the physical accident, no, sir.
Q. Officer Earnest, you’ve been through quite a bit of
training in your 12 years with the highway patrol, have
you not, sir?
A. Yes, sir.

50a
Q. And isn’t it true, sir, that you have been taught that
it is important to accurately and truthfully and
completely fill out Uniform Crash Reports?
A. Yes, sir. Yes, sir.
Q. And you’ve -- could you tell the jury what a Uniform
Crash Report is?
A. It’s the document that is made out a wreck. It’s a -what is filled out from the information provided.
Q. If law enforcement investigates or works a car
accident, generally they fill out a Uniform Crash
Report in Mississippi, don’t they, sir?
A. Generally, yes, sir.
Q. Particularly, the Mississippi Highway Patrol utilizes
the Uniform Crash Report, don’t they?
A. All agencies use it, but in particular cases, location
and severity depends on—
Q. Sure. I’m not trying to trick you.
A. Yes, sir.
Q. A Uniform Crash Report is filled out to document
what happened in a car accident, correct?
A. That’s correct.
Q. Alright. Thank you, sir. Additionally, in addition to
there being no notice to drivers that they 25 would
have to stop at the roadblock on Highway 25, does 26
the–
MR. STUART: I’m sorry. Strike that, Your Honor.

51a
Q. Isn’t it true, Officer Earnest, that the Mississippi
Highway Safety Patrol has dash cameras in their
vehicles?
A. We do.
Q. Isn’t it true, sir, that you have utilized dash cameras
in a vehicle?
A. Yes, sir.
Q. However, it is equally true, isn’t it, sir, that you
have no dash camera video from this night in question,
do you, sir?
A. That’s correct.
Q. And dash cams are used, are they not, Trooper
Earnest, to document, record, and preserve evidence in
cases that the Mississippi Highway Patrol
investigates?
A. Yes, sir. Mostly on traffic stops, yes, sir.
Q. It’s equally true, isn’t it, Trooper Earnest, that the
Mississippi Highway Patrol has body cameras?
A. No, sir.
Q. The Mississippi Highway Patrol, you’re telling 20
this jury, sir, on your oath in 2019, that the Mississippi
Highway Safety Patrol does not use body cameras?
A. As far as my knowledge, we do not. I do not have
one.
Q. So it would be fair to say you have no body camera—
A. That’s correct.

52a
Q. –evidence from the night in question, do you?
A. Yes, sir. Correct.
Q. You also don’t have any audio recording of the night
in question, do you, sir?
A. No. No, sir. Not to my knowledge, no, sir.
MR. STUART: Court’s indulgence for one moment.
(BRIEF PAUSE.)
BY MR. STUART:
Q. You mentioned blue lights at the roadblock, Trooper
Earnest. Do you recall that?
A. Yes, sir.
Q. Isn’t it true that Jason Moore’s blue lights were not
activated at the roadblock?
A. I don’t recall on his vehicle, sir.
Q. That would be important, wouldn’t it?
A. No, sir.
MR. STUART: No further questions for this witness,
Your Honor.

53a

APPENDIX D
IN THE CIRCUIT COURT OF MISSISSIPPI
FOR TISHOMINGO COUNTY
Case No. CR-18-187
[Filed: October 9, 2018]
____________________________________
STATE OF MISSISSIPPI
)
Appellant,
)
)
v.
)
)
BRIAN TURNER
)
Appellee.
)
____________________________________)
Decided October 8, 2019
Before: MIMMS, Circuit Judge.
_____________
Cross-Examination of James Guthery at Trial
_____________
BY MR. STUART:
Q. Good morning, Officer Guthery.
A. How are you doing, sir?
Q. Doing fine, sir. I’m Drew Stuart from Tupelo. We’ve
met before.
A. We have.

54a
Q. Thank you, sir. On the night of May 3rd, you were
working for the Belmont Police Department?
A. Yes, sir.
Q. And you were at the roadblock, isn’t it true, as you
stated, at Northside Drive and Highway in Belmont?
16
A. Safety checkpoint, yes.
Q. You were there?
A. Yes, sir.
Q. And you saw a black truck turn about a thousand
feet from the roadblock, correct?
A. Roughly. I never went up there and measured it. 22
I don’t know how far it is. It could be more. It could 23
be less.
Q. Well, you’ve previously given testimony in this
courtroom under oath, and did you or did you not
testify it was about a thousand feet?
A. Yes.
Q. Thank you, sir.
A. You’re welcome.
Q. At the time you saw the black truck turn, you did
not see any crime committed by the person driving the
black truck, did you?
A. No, sir. He made a -- a smooth turn. He wasn’t in no
hurry. He went across the fog line into a vacant
parking lot and back out.

55a
Q. Well, when you say he went across the fog line, he
made a left across –
A. Yes, he turned left. What I’m saying is, he didn’t just
abruptly spin out in the road or make some U-turn
within the lanes.
Q. Right.
A. He done it the right way and went off completely
and then come back.
Q. The driver of the black truck did not make an
abrupt turn, did he?
A. No.
Q. Thank you, sir. Also, on the night in question,
talking about the roadblock, isn’t it true, sir, that there
was no notification to oncoming drivers that they had
to proceed through the roadblock on Highway 25?
A. In DUI-only roadblocks, there should be a sign.
Q. That’s not my question.
A. In a safety checkpoint, we do not have to have any
notification except blue lights on both sides of the road.
Q. I understand. But if you’ll listen closely to my
question. My question to you, sir, is, there was no
notification on the roadway to oncoming drivers that
they had to proceed through this roadblock?
A. No, sir.

56a
Q. There was no notification that it was, in fact, a
roadblock for a safety checkpoint, as you’ve called it,
was there?
A. There was not.
Q. In fact, sir, there was nothing, absolutely nothing to
differentiate the roadblock or safety checkpoint from a
common car wreck a driver at a thousand feet away,
was there?
A. No.
Q. If you would have been positioned as the driver of
the black truck, Officer Guthery, and you were
traveling on Highway 25 towards the roadblock and
you saw the blue lights, there would have been no way
you would have known if it was a safety checkpoint or
a wreck, would you?
A. I sure wouldn’t.
Q. You would not have, would you, sir?
A. No.
Q. After you saw the black truck turn, you did not see
Officer Moore stop the black truck, did you?
A. No, sir. He they turned left onto Green Street, and
so it was out of our sight by then.
Q. I’m talking about you specifically, sir. You did not
see Officer Moore stop the black truck?
A. No, I did not.

57a
Q. Isn’t it true, Officer Guthery, as we sit here today,
you really don’t know what happened at the stop of the
black truck because you weren’t there?
A. I have no idea.
Q. Isn’t it equally true, Officer Guthery, that you did
not see Officer Moore’s vehicle and the black truck
collide?
A. I did not.
Q. You did not see it. You arrived after the vehicles
collided at or near Joel Cemetery on Highway Old
Highway 25, correct?
A. That’s correct.
Q. And at the time you arrived until the end of that
altercation, you never identified the defendant, Brian
Turner, at the scene of this crime, did you?
A. No, sir.
Q. You did not see Brian Turner’s face at any time?
A. No, sir.
Q. On May the 3rd, 2018, did you, sir?
A. I did not.
Q. Isn’t it true, sir, that you had previously testified on
or about May 2018 under oath regarding this collision,
in this courtroom? Do you recall that, sir? Do you recall
giving testimony in May of 2018 in that very seat
you’re sitting in, sir?
A. Yes.

58a
Q. Okay. And at that time you indicated that once
that—you observed the vehicles that had been in the
collision after they had come to rest; isn’t that correct?
A. Yes. Deputy Moore’s vehicle was already stopped.
The black pickup was moving.
Q. And those two vehicles were not close together, were
they?
A. Not just real close, no.
Q. You previously testified in this case, sir. And when
you were testifying, sir, I asked you, Were they, the
vehicles, touching or very close to each other? Do you
recall that question?
A. No, I don’ t.
Q. If I told you I’m reading from the transcript from
that hearing and that’s what I asked you, would you
believe what I’m saying?
A. I’m not saying you didn’t ask me. I’m just saying I
don’t remember you asking me. That was a long time
ago.
Q. Well, you recalled it better then than you do now,
didn’t you?
A. Of course.
Q. You’ve had a lot of opportunity to talk with Jason
Moore about this case, haven’t you?
A. I don’t talk to Deputy Moore that much.

59a
Q. You’ve talked to Deputy Moore about this case,
haven’t you, sir?
A. Of course we have.
Q. You talked to him after the incident, didn’t you, sir?
A. Yeah.
Q. At no time did the MBI take a statement from you,
did they, sir?
A. They did.
Q. You gave your statement to the Belmont 3
investigator, did you not?
A. Yes, and the MBI got it from there.
Q. You wrote your own statement?
A. Right.
Q. The MBI did not come question you, did they?
A. No.
Q. You were never subjected to any kind of internal
investigation, were you –
A. No, sir.
Q. -- by the Belmont Police Department? In fact, you
weren’t even investigated by the MBI as a result of this
officer-involved shooting, were you?
A. No, sir.
Q. At no time did the MBI investigate you, sir, as to
what happened in this case, did they?

60a
A. No, sir.
Q. They also did not investigate Officer Moore, did
they?
A. Not to my knowledge. I don’t know if they did or not.
Q. I’ll go back to the hearing of May 2018 when I asked
you, Were they, the vehicles, touching or very close to
each other? You said, No, no. They weren’t touching.
They weren’t even close. That’s what you testified to
then.
A. They weren’t touching.
Q. And that’s what you testified here to today?
A. Right. They were not touching.
Q. So if Officer Moore says they were close, he’s wrong,
isn’t he?
A. Well, what’s his definition of close? His idea of close
might be different from my idea of close.
Q. Well, my question to you is, if Officer Moore said the
vehicles were close, he’s wrong, isn’t he?
A. Not necessarily.
Q. You have been, sir, in the United States Army?
A. I have.
Q. Dutifully served. And you have served as a police
officer in the City of Belmont for how many years, sir?
A. Eight.

61a
Q. Eight years. And could you tell this jury about 16
the training that you’ve undergone to serve as a police
officer in the State of Mississippi?
A. It’s just a basic law enforcement class.
Q. And at that law enforcement class, isn’t it true, sir,
that you were taught to fill out reports, correct?
A. Yes.
Q. Accurate reports?
A. Right.
Q. Complete reports? Is that a yes, sir?
A. I said we were.
Q. The only reason I’m asking is -- and I know you
know she is taking down everything you say, so please
don’t nod. Just answer orally. Okay, sir?
A. Right.
Q. You were also taught, and you would agree with me,
that it is important to follow your training as a police
officer?
A. That’s true.
Q. That’s the safe thing to do?
A. Right.
Q. It’s equally important, isn’t it, sir, to follow 9 your
department policy; isn’t that true?
A. That’s true.

62a
Q. Do you know, sir, if the -- I’m sorry. Strike that. You
were, on the night in question, driving a -- or operating
a Belmont City police car?
A. I was.
Q. Are those Belmont City police cars, are they 16
equipped with dash cams?
A. They’re not.
Q. They’re not. So you -- it would be fair to say, have no
dash cam video to –
A. Have none.
Q. -- substantiate anything in this case?
A. Have none.
Q. In your training or experience as a law enforcement
officer, are you aware of the use of body cameras?
A. Yes.
Q. Are you familiar with that investigative tool, a body
camera?
A. Yes.
Q. Thank you, sir. Isn’t it true, sir, that police body
camera footage can offer the police, the prosecution, a
tool to collect and retain evidence to show at a trial?
A. Yes, it can.
Q. It is a helpful investigative tool, is it not?
A. Very.

63a
Q. In fact, isn’t true that a body camera will
supplement what the officer’s later testimony is; isn’t
that true?
A. That’s right.
Q. With a body camera, we could download that footage
onto a computer and play it in a courtroom; isn’t that
true?
A. You can, yes.
Q. In other words, we wouldn’t --not only wouldwe have
evidence as to what the witness is testifying to on the
witness stand, there would be a supplement for the
jury to look at?
A. There would be.
Q. And that’s what body cameras are intended for, isn’t
it?
A. That’s right.
Q. Body cameras—tell, if you know, have you ever used
a body camera?
A. Yes.
Q. Could you explain to the Jury how a body camera
works?
A. Oh, it depends on what kind you have.
Q. The kind you’ve used. Tell the jury how they work.
A. The kind I use, well, you either -- you have a power
button. You can flip it completely off or you can flip it
to standby. When you need it, you hit the center

64a
button, and it takes so long to come on. It backs up 30
seconds. There is no audio during that 30 seconds, but
you’ll get the video.
Q. You just have it clipped onto your shirt or tie?
A. No, mine was clipped onto my outer carrier vest in
the passenger’s seat.
Q. Well, what I’m asking you is, to turn on the body
camera, you just push a button, right?
A. If you got it on standby, yes.
Q. To turn off the body camera, just push a button?
A. Push and hold until you hear an audible beep.
Q. Just like this computer, right?
A. Yeah.
Q. Push the button and it’s on. Push the button. Push
the button and ‘s off. In other words, that body camera
footage, if someone accused an officer of doing
something wrong, it’s possible that that body camera
footage could substantiate what the officer says or what
he did, right, or she; isn’t that correct?
A. That’s correct.
Q. It could also -- the body camera footage could also
contradict what any witness might say, correct?
A. That’s true.
Q. It could prove that defendants were properly advised
of their Miranda rights, couldn’t ?

65a
A. It could.
Q. It could highlight and prove police misconduct,
couldn’t it?
A. It sure could.
Q. It could also prove the actual innocence of a
defendant, couldn’t it, sir?
A. It could do that, too.
Q. The Belmont Police Department has a body camera
policy, do they not?
A. They do.
Q. And you’re familiar with that policy, aren’t you, sir?
A. Somewhat.
Q. How long did you work as an officer at the 16
Belmont Police Department?
A. Eight years.
Q. During that time did you familiarize yourself with
the body-worn camera policy?
A. Once we got them, yes.
Q. And you were issued a body camera, were you not,
sir?
A. We’re not issued any, not as our personal or
anything like that. You just get one when you go in.
They’re just plugged up on the counter.
Q. Well, you’re required to, aren’t you?

66a
A. Yeah. It says we -- you know, we need to have it, but
no one has ever been written up for not having it.
Q. No one at Belmont Police Department has ever been
-- I’m sorry. Strike that. What 1s a write-up? I’m sorry,
sir.
A. Written up, reprimanded. No one has ever gotten in
trouble if they didn’t have it. It’s just there for a tool for
us.
Q. So it’s basically --you’re saying it’s just left to
officer’s discretion whether you want to wear the body
camera or not?
A. Just about it.
Q. Just about it or it either is or it isn’t.
A. Pretty much it is. If I didn’t want to get one, I didn’t
get one.
Q. Were you in charge of making that decision?
A. No, sir, I wasn’t.
Q. Who’s in charge of making those type decisions, sir?
A. The chief.
Q. On the night in question, you were acting in the as
a Belmont police officer, weren’t you, sir?
A. Yes, sir.
Q. You were acting in your official duty as a police
officer, weren’t you, sir?
A. Yes, sir.

67a
MR. STUART: May I approach this witness, Your
Honor?
THE COURT: You may.
BY MR. STUART:
Q. Sir, I’m going to show you this set of about -- how
many pages is that, Mr. Guthery?
A. One, two, three, four, five.
Q. All right. Do you recognize that document?
A. Yes.
Q. What is it?
A. It’s the body cam policy.
Q. And that’s the body-worn cam policy from the City
of Belmont, Mississippi, right?
A. This is nothing the City itself come up with. This
was passed on from another agency, as the rest of our
policies were.
Q. Well, that is the policy that is used at your
department, is it not?
A. Yes. In the big picture, yes.
Q. If I told you I sent a public records request to your
chief of police and that’s what he sent me back as your
body-worn camera policy –
A. Right.
Q. -- would you disagree with your chief of police?

68a
A. No, this is it.
Q. All right, sir. Thank you.
A. Yep.
Q. Does that appear to be a true and accurate
representation of the body-worn camera policy, sir?
A. Yes.
Q. Thank you. May I see that document, sir?
A. Yeah.
MR. STUART: The Court’s indulgence one moment.
(BRIEF PAUSE.)
BY MR. STUART:
Q. Isn’t it true, sir, that you do not have any body-worn
camera video from the night in question?
A. No, sir, no video.
Q. You did not have your body-worn camera activated
at the time of the events in question, did you?
A. No, sir, it was not on my person.
Q. You did not have -- not only was it not on your
person and was it not activated at the events in
question, the body-worn camera was not on or activated
at the roadblock, was it?
A. No, sir. We just don’t wear them for checkpoints.
MR. STUART: Your Honor, may I approach the
witness again?

69a
THE COURT: You may.
BY MR. STUART:
Q. Sir, I’m going to show you what you’ve identified as
the Belmont body-worn camera policy.
A. Um-hmm.
Q. On the top of the third page, sir, beside letter A,
would you read that complete sentence?
A. All right. Except as otherwise provided in this policy,
officers shall activate body-worn cameras to record all
contacts with citizens in the the performance of official
duties.
Q. Thank you, sir. On the night -- the day in question,
sir, you were not in compliance with your department
policy, were you, sir?
A. No, sir.
Q. So as we sit here today, you failed to collect evidence
with your body-worn camera, didn’t you, sir?
A. Right.
Q. At no time did the MBI try to obtain your body-worn
camera, did they?
A. Not to my knowledge. They didn’t come ask me
personally.
Q. And to your knowledge they have never reviewed
any body-worn camera that you may or -- may or may
not have worn on the night in question?
A. No.

70a
Q. You’ve never even given any information to the MBI
about the body-worn camera, have you?
A. No.
Q. At no time did you tell any MBI investigator that
you were acting outside of your department policy on
the day in question, did you?
A. No.
Q. At no time did the MBI even question you about
acting outside your department policy?
A. No.
Q. Isn’t it true, sir, after you acted outside your
department policy and failed to collect evidence with
your body-worn camera, that you were not even written
up by the Belmont Police Department, were you?
A. No, sir.
MR. STUART: Your Honor, I would move to admit the
Belmont Body-worn Camera Policy as Defendant’s
Exhibit 13.
THE COURT: What says the State?
MR. O’NEAL: No objection, Your Honor.
THE COURT: It shall be admitted.
(WHEREUPON, THE BELMONT BODY-WORN
CAMERA POLICY WAS MARKED RECEIVED AS
DEFENDANT’S EXHIBIT NO. 13.)

71a
BY MR. STUART:
Q. Isn’t it true, sir, that your department policy has
indicated that body-worn cameras allowed for accurate
documentation of police public contacts; isn’t that
correct?
A. That’s correct.
Q. Arrests; isn’t that correct?
A. That’s correct.
Q. And critical incidents. And you would agree with me
an officer-involved shooting is a critical incident?
A. Very critical.
Q. Also, your policy has instructed you and taught you
that the body-worn cameras also serve to enhance the
accuracy of officer reports and testimony.
THE COURT: Hold on a second.
(OFF THE RECORD.)
MR. STUART: May I proceed, Judge?
THE COURT: You may.
BY MR. STUART:
Q. Audio and video recording, sir, from your body-worn
camera enhance the Belmont Police Department’s
ability to review probable cause for arrests, doesn’t it?
A. That’s true.
Q. It also records officer and suspect interaction, 4
doesn’t it?

72a
A. It does.
Q. And it’s evidence for investigative and prosecutorial
purposes, correct?
A. That’s correct.
Q. And it provides additional information for officer
evaluation and training, correct?
A. That’s true.
Q. The body-worn camera policy at the Belmont Police
Department on the night in question, sir, indicated to
you that body-worn cameras may also be useful in
documenting crime and accident scenes; isn’t that
correct?
A. Correct.
Q. As a Belmont Police Department -- and correct me
if I’m wrong, sir -- you had worn a body-worn camera
prior to this incident, hadn’t you?
A. Oh, yeah.
Q. You had received at that point on May the 3rd, 2018,
you had already received the department-approved
training on the operation of the body-worn camera,
hadn’t you?
A. We didn’t have any kind of class. I mean, they were,
like I said, self-explanatory to turn on.
Q. So prior to you using a body-worn camera, you never
received any training pursuant to your department’s
policy?

73a
A. No. I mean, we didn’t just sit down and have a class
specifically on a body cam, no.
Q. So you never went through any training to begin
with with the department on these body-worn cameras,
correct?
A. Correct.
Q. So it would suffice to say, Mr. Guthery, that where
your policy indicates that additional training shall be
provided at periodic intervals to ensure the continued
effective use of the equipment, proper calibration and
performance, and to incorporate changes, updates, or
other revisions in policy or equipment, you had not
done any of that pursuant –
A. We hadn’t had a class, no.
Q. Did the Belmont Police Department even follow this
procedure, sir?
A. I’m sure they do.
Q. You were there for eight years?
A. We didn’t always have cameras.
Q. Well, I’m just talking about this policy. Does the
department follow the procedure as laid out in this
policy?
A. They do, yes.
Q. But on the night in question, it is true you did not
follow the department policy, did you?
A. Did not have one on, no.

74a
Q. Did you notify the MBI that you failed to act
according to the department policy?
A. I didn’t just call anybody up and say, Hey, I didn’t
have a camera on. I mean, I’m sure they knew it. They
found out at some point in time.
Q. Well, you would agree with me, Officer Guthery,
that it is important to follow department policy?
A. It is, very.
Q. I think you also said on direct when the prosecutor
was questioning you, Officer Guthery, that Trooper
Earnest was not at the scene of the collision?
A. He showed up later. He wasn’t there initially, no.
Q. You could see a gun in this case is your testimony,
correct?
A. Sir?
Q. You could see a gun?
A. Yes. The individual in the black truck with a gun?
Q. Yes, sir.
Q. You could see that?
A. Could see it.
Q. But you couldn’t see the individual’s face?
A. No.
MR. STUART: Your Honor, I tender Officer Guthery
back to the prosecutor.

75a

APPENDIX E
IN THE CIRCUIT COURT OF MISSISSIPPI
FOR TISHOMINGO COUNTY
Case No. CR-18-187
[Filed: October 9, 2018]
____________________________________
STATE OF MISSISSIPPI
)
Appellant,
)
)
v.
)
)
BRIAN TURNER
)
Appellee.
)
____________________________________)
Decided October 8, 2019
Before: MIMMS, Circuit Judge.
_____________
Cross-Examination of Jason Moore at Trial
_____________
BY MR. STUART:
Q. Good afternoon, Officer Moore.
A. Good afternoon, sir.
Q. Officer Moore, do you recall May the 15th of 2018,
here in this courtroom, you gave testimony under oath?
A. Yes.

76a
Q. And I was here?
A. Yes, sir.
Q. And the county prosecutor was here?
A. Yes, sir.
Q. All right. Did you answer all of those questions
truthfully at that time?
A. Yes, I did.
Q. Would you change any of your testimony from that
hearing on May the 18th, 2018, at this time?
A. No.
Q. All right. Thank you, Mr. Moore. At that hearing
you indicated that you had given a statement to the
MBI in this case?
A. Yes.
Q. In fact, you gave that statement to Greg Mitchell,
didn’t you?
A. I believe that’s right, yes
Q. In fact, isn’t it true, Officer Moore, you typed out
your own statement?
A. Yes, I did.
Q. Isn’t it true, Officer Moore, that at no time have you
met with Greg Mitchell—I’m sorry. Strike that—with
Keith Woodruff about this case, have you?
A. I have not.

77a
Q. On May the 18th, when we had a preliminary
hearing, you had not met with the lead investigator,
Keith Woodruff, in this case, had you?
A. No.
Q. And as we are here today in front of this jury, you
still have not met with Keith Woodruff about this case,
have you?
A. Have not.
Q. And you know that he is the lead investigator,
correct?
A. Yes.
Q. At the time of the hearing on May 18th, 2018, Mr.
Moore, when you told me you had given a typed
statement that you typed yourself, that was, in fact,
the case, wasn’t it?
A. Yes.
Q. And have you typewritten any other statement since
that time?
A. No, that’s the only one.
Q. Have you given any other official statement since
that time?
A. No, I have not.
Q. When you made your typewritten statement prior to
May 18th, 2018, did you put everything in that
statement that was true and correct in this case?
A. Everything that I recall, yes, sir.

78a
Q. Did you put everything that was important?
A. Yes, sir.
Q. Have you had a chance to review that statement of
facts that you typed up?
A. I reviewed it before I turned it in.
Q. Have you reviewed it before this testimony here
today?
A. No.
Q. All right. Would you change anything at this time
that you put in that statement of facts?
A. No.
Q. You would agree with me, then, nowhere in your
statement of facts do you mention anything about
getting a long gun out of your trunk?
A. No, I did not put that in my statement.
Q. Additionally, you gave sworn testimony on May 14
the 13th, 2018. You said you recall that, Mr. Moore?
A. Yes.
Q. At no time during that testimony did you 17 indicate
to the Court that you retrieved an AR-15 out of your
trunk?
A. No.
Q. I’m going to take you back, Mr. Moore, to the
roadblock itself. Do you recall the roadblock, sir?
A. Yes, sir.

79a
Q. It was located at Northside Drive and Highway 25
in Belmont?
A. Yes, sir.
Q. You were there?
A. I was.
Q. Officer Guthery was there?
A. He was.
Q. He was with the Belmont Police Department?
A. He was.
Q. Trooper Earnest was there?
A. He was.
Q. And Officer Cornelison of the Belmont Police
Department; is that correct?
A. Yes, sir.
Q. And at that particular roadblock, isn’t it true, Mr.
Moore, that you were obviously in your patrol car?
A. Yes, sir.
Q. And you did not have your blue lights on at the 12
roadblock, did you?
A. No, I did not.
Q. And isn’t it equally true, Mr. Moore, that when the
black vehicle turned away from the roadblock, it was
approximately a thousand away, wasn’t it?

80a
A. I don’t know how far it was. I haven’t measured it.
MR. STUART: Court’s indulgence one moment.
(BRIEF PAUSE.)
BY MR. STUART:
Q. When Mr. Turner turned around, there was a 23
parking lot, wasn’t there?
A. There is a parking lot to an old store, yes, sir.
Q. Yes, sir. It wouldn’t be unusual to turn around in a
parking lot if someone believed there was a wreck
ahead, would it?
A. For a wreck, no. A checkpoint, yes.
Q. I asked you a minute ago if it was approximately a
thousand feet. Do you recall that?
A. Yes, sir.
Q. You said you didn’t know.
A. That’s correct.
Q. Do you remember that, sir?
A. Yes, sir.
Q. On May the 18th, 2018, your county attorney
questioned you. Do you recall that?
A. Yes, sir.
Q. He said -- strike that. Once he turned around in the
parking lot and went down Green Street, correct?

81a
A. Yes.
Q. And you followed him?
A. Yes.
Q. And you pulled him over?
A. I did.
Q. And he, in fact, did pull over, didn’t he?
A. After a short time with me behind him with my blue
lights on, yes, he did pull over.
Q. And he pulled over to the right side of the road?
A. He did.
Q. And he put down his window?
A. He did.
Q. You went up to his window?
A. I did.
Q. You did not smell alcohol?
A. I did not.
Q. You did not smell alcohol on his person?
A. I did not.
Q. You did not smell a strong scent of alcohol coming
from the vehicle, did you, sir?
A. I did not.
Q. Additionally, you did not smell any marijuana?

82a
A. No, sir.
Q. You didn’t see any illegal drugs or anything illegal
in the vehicle, did you, sir?
A. No, sir.
Q. After that, you’ve indicated, sir, that Mr. Turner left
the scene of the stop?
A. He did.
Q. That was on Old Highway 25?
A. Yes, sir.
Q. And you’ve indicated that you followed him?
A. I did.
Q. In fact, you chased him, didn’t you?
A. I pursued him.
Q. And it is a fact, isn’t it, sir, that you have no dash
cam video to substantiate what you’re saying, do you,
sir?
A. That’s correct.
Q. As we sit here today in 2019, you do not have dash
cam video of this incident, do you?
A. No, sir.
Q. However, on May the 3rd, 2018, you testified that
the Tishomingo County sheriff’s office had utilized body
cams, correct?
A. Yes, sir.

83a
Q. In fact, they had issued you a body camera?
A. Yes, sir.
Q. And you’ve testified that your camera was in Officer
Marlar’s office?
A. Yes, sir.
Q. Isn’t it true, sir, you have no documentation or
writings to substantiate the location of your body cam
on the night in question, do you?
A. I don’t understand what you’re asking me, sir.
Q. You have a logbook.
MR. STUART: I’m sorry. Strike that, Your Honor.
BY MR. STUART:
Q. Isn’t it true you have nothing from a logbook or any
recording as to where your body cam was on the night
in question?
A. No, sir.
Q. How many times did the lead investigator from the
MBI, Keith Woodruff, how many times did he contact
you to review your body camera?
A. He hasn’t.
Q. He still hasn’t contacted you?
A. No, sir.
Q. Hasn’t contacted you to even ascertain what may or
may not be on the body camera, has he?

84a
A. No, sir.
Q. At no time has Officer Woodruff himself or anyone
else from the MBI come to interview you, have they?
A. To interview me, no, sir.
Q. They simply relied on the statement that you typed
up, correct?
A. That’s correct.
Q. And you gave it to Greg Mitchell with the
Tishomingo County sheriff’s office?
A. Yes, sir.
Q. You’ve been an officer, certified officer, since when,
sir?
A. Since September the 11th of 2013, I believe it is.
Q. Q. How long have you been a full-time certified
officer?
A. Since I graduated, April the 27th of 2017.
Q. So since April the 27th of 2017, you’ve been a 16
full-time certified officer?
A. Yes, sir.
Q. Prior to being involved in this shooting, sir, you had
heard about officer-involved shootings, I’m sure; isn’t
that correct, sir?
A. That’s correct.

85a
Q. Don’t you believe, sir, that it is important that there
be an independent investigation when there is an
officer-involved shooting?
A. I would -- I would assume so, yes, sir.
Q. You would agree with me that an independent
investigation is important?
A. I guess.
Q. Well, I’ll ask you this, sir: If you were accused of a
crime, would you want there to be an independent
investigation?
MR. ROBBINS: Objection, Your Honor. And he’s not
involved—
THE COURT: I think you can ask the question.
BY MR. STUART:
Q. I’m sorry, sir. I’ll repeat the question. If you were
accused of a crime, Mr. Moore, would you want there to
be an independent investigation?
A. I would want it to be investigated by the proper
authorities.
Q. Would you want it to be independent?
A. I’m not sure I understand what you’re asking me.
Q. You don’t know what an independent investigation
is, sir?
A. I don’t understand the question you’re asking me.

86a
Q. At the previous hearing, sir, you testified about the
wreck. Do you recall that, sir?
A. Yes, sir.
Q. And at that hearing I asked you, sir, whether at
some point –
MR. STUART: I’m sorry, Your Honor. I thought it was
turned off. I’m not very good at this thing. May I
proceed, Judge?
THE COURT: You may.
BY MR. STUART:
Q. Officer Moore, at the May 19th, 2018, hearing, I
asked you a question. I said, You’ve also indicated, sir,
at some point this black vehicle rammed your vehicle in
a head-on collision; is that correct? Do you remember
that question?
A. I remember talking about the wreck itself, but I
don’t remember the exact question, no.
MR. STUART: May I approach this witness, Your
Honor?
THE COURT: You may.
BY MR. STUART:
Q. Mr. Moore, I’m going to show you the transcript of
the hearing on May of 2018.
A. Okay.
Q. All right, sir. I’ll let you take it and look at it, and I’ll
ask you to flip over to Page 29, sir.

87a
A. Okay.
Q. Do you see Line 13?
A. I do.
Q. Will you read Line 13, 14, and 15, sir?
A. Thirteen says, You’ve also indicated, sir, at some
point this black vehicle rammed your vehicle in a headon collision; is that correct?
Q. Thank you. Now do you recall the question, sir?
A. Yes, sir.
Q. And you answered, Yes. You answered Yes, didn’t
you?
A. Yes.
MR. STUART: Your Honor, may I approach and look
at the State’s exhibits?
THE COURT: Sure.
BY MR. STUART:
Q. Have you had an opportunity to view the black
vehicle in this case, sir?
A. The only vehicle I’ve seen is my patrol car, sir.
Q. That’s the only one you’ve seen?
A. Yes, sir.
Q. All right. You indicate, sir –
MR. STUART: I’m sorry. Strike that, Your Honor.

88a
BY MR. STUART:
Q. Is your answer to my question, Mr. Moore, At some
point this black vehicle rammed your vehicle in a headon collision; is that correct? And you said, Yes. Is that
still your answer today?
A. Well, he didn’t hit me head-on, but we almost hit
head-on.
Q. At some point did you meet with Officer or Trooper
Cody McGee in this case?
A. The only time I met with him was that night.
Q. And you explained to Trooper McGee what
happened in this case?
A. Very briefly.
Q. He did an accident report?
A. I’m assuming.
Q. He filled out a Uniform Crash Report?
A. I believe so.
Q.Based on the information that you gave him, correct?
A. Yes, sir.
Q. Did you give him true and accurate information on
the night in question, sir?
A. Yes, I have.
Q. Has anything changed since you gave him that
information, sir?

89a
A. No.
Q. Also, Mr. Moore, at the May 2018 hearing you were
questioned by the county attorney wherein the county
attorney asked you, Post-wreck, were your vehicles
touching at s point? Do you recall that question?
A. Not - not exactly, no, sir.
MR. STUART: May I approach the witness, Your
Honor?
THE COURT: You may.
MR. STUART: Ray, I’m going to start on Page 12.
BY MR. STUART:
Q. He asked you, sir, on Line – Page 12, Line 1, Then
what happened at that point? You said, His vehicle
struck my vehicle.
A. Yes.
Q. Correct?
A. Yes.
Q. Then getting past the wreck, sir, you said, AndI
went to approach the driver’s side of his vehicle. You
said that, didn’t you?
A. Yes, after the wreck.
Q. You were asked after that, Okay. Were your vehicles
touching at this point? You said, No. Do you remember
that?
A. Yes.

90a
Q. That was a true and correct answer, right?
A. Yes.
Q. You said after that –
MR. STUART: I’m sorry. Strike that, Your Honor.
BY MR. STUART:
Q. The next question was, Were they close together? Do
you recall that?
A. I believe so.
Q. And you answered, They were close together, but they
weren’t touching. Do you recall giving that answer?
A. Yes.
Q. Do you still stand by that answer?
A. I do.
Q. So let me ask you this: If Officer Guthery testifies
they weren’t close together, that would be untrue?
A. I’ve not heard any of Officer Guthery’s testimony, so
I couldn’t answer that.
Q. That’s not my question. You said they were close.
A. They were close.
Q. But not touching?
A. That’s correct.

91a
Q. My question to you is, if Officer Guthery testifies
that they weren’t even close, the vehicles, that is
untrue, isn’t it?
A. I believe that’s a matter of opinion on my definition
of close and his definition of close.
Q. Have you gone back—I’m sorry. Strike that. Isn’t it
true that after the initial incident, after other officers
showed up, Greg Mitchell took over the scene, you were
still able to talk with Officer Guthery about this,
weren’t you?
A. I was.
Q. And you did talk with Officer Guthery about this.
A. I was. Or I did.
Q. After this incident, Mr. Moore, you were checked by
medical personnel; isn’t that true?
A. That’s correct.
Q. Were you given any -- any kind of testing for
medicines by the medical personnel?
A. They checked my blood pressure and my heart rate.
That’s all they did.
Q. Were you given a urinalysis?
A. I was not.
Q. Were you given a blood test?
A. I was not.

92a
Q. Isn’t it true, Officer Moore, that this is not the only
use-of-force case you’ve been involved in?
A. That’s true.
MR. STUART: Court’s indulgence for one moment.
(BRIEF PAUSE.)
BY MR. STUART:
Q. Isn’t it true, Officer Moore, that you retained your
gun after this incident occurred for several days?
A. Yes.
MR. STUART: No further questions for this witness,
Your Honor.

93a

APPENDIX F
IN THE CIRCUIT COURT OF MISSISSIPPI
FOR TISHOMINGO COUNTY
Case No. CR-18-187
[Filed: October 9, 2018]
____________________________________
STATE OF MISSISSIPPI
)
Appellant,
)
)
v.
)
)
BRIAN TURNER
)
Appellee.
)
____________________________________)
Decided October 8, 2019
Before: MIMMS, Circuit Judge.
_____________
Closing Argument by Mr. O’Neal of the Prosecution
_____________
BY MR. O’NEAL:
Good afternoon. It’s been a long week. As the judge
was reading instructions, I just looked at this picture
and it just struck me how peaceful that is. I’ve driven
by there, I don’t know, several hundred times, I guess,
coming to Iuka for work. And peaceful. Just think
about this. One moment we are here for, you know, just
a few minutes. Probably even less than a few minutes

94a
out here that were not peaceful. And your job as jurors
is to decide the guilt or innocence of Mr. Turner.
The judge said a word that I think is very important
-- or two words. Common sense. That’s why we have
jurors. That’s why we have 12 people from Tishomingo
County to ultimately decide this case.
You try to think of things. I know that in opening,
I think Mr. Stuart said something about the fox
guarding the henhouse. Well, you know, there’s no
hens sitting out here. That’s pretty brave people that
get out there and do this for a living. It’s a tough job.
You’re not dealing with perfect situations, you know.
You have family squabbles and disputes in
Itawamba County where somebody drinks too much
and they get sprayed. Well, that doesn’t have anything
to do with Tishomingo County, folks. There’s a lot of
things that don’t have anything to do with this case.
Advertising in the newspaper about a checkpoint. Vests
on at a checkpoint. DNA on bullet holes when
everybody knows whose gun it was. That has nothing
to do about the case.
When I was a kid, I grew upin the Delta in afarm
community. My dad had a little store, and he liked
riding around. He was older. When I was born, he liked
riding around looking at fields. And there was a bird
called a killdee. And we were riding down the road and
saw this bird with a broken wing running. Daddy, that
bird is hurt. He said, That bird isn’t hurt. I said, Yeah.
He said, No, that’s a mama bird, and there is a nest
over there on the ground somewhere, and she doesn’t

95a
want us to find it so she is pretending like she’s
wounded where a predator will come after her.
So you talk about a lot of different things, and that
goes on in court sometimes. And you talk about issues
like safety vests or it would have been nice if they had
body cameras on. It would have been nice, but we don’t
have it.
Here is the thing: We have the evidence of what
happened in this case on the counts that you’re here to
decide. You’re here to decide a felony fleeing count,
you’re here to decide a felon with a weapon, and three
counts of aggravated assault, one with a vehicle and
two with a weapon.
We’ve had several witnesses here today or over this
week. We’ve got the officers, Officer Moore, Officer
Guthery. They were there. They told you what
happened from their standpoint. We have a chart. We
have a patrol car. We have the suspect vehicle. We
have another patrol car. We have Officer Moore’s shell
casings all here in green. We have Officer Guthery’s
shell casings all here in yellow back behind this car. We
have the shell casings from the SKS rifle that Mr.
Turner illegally possessed here and here.
What do we know about a shell casing from the
guns in this case? They throw out to the right and up.
So if I am shooting that way, the shell casings go out
that way. So if the suspect is shooting towards this car,
his shell casings are going here to the right or here to
the right. It all made sense. It all pieces together. The
story makes sense.

96a
Miraculously, nobody was killed. I don’t know.
That’s -- it’s really a miracle. Any gun is serious, but
these are really serious to have 30 of these babies
coming down a barrel at an officer. They went home to
their families that night. That’s the good part.
But let’s think about this. Common sense. We’ve
heard about, Well, I thought there was a wreck. Maybe
I was going to turn around. I don’t think getting
stopped by a wreck for a long period of time is really a
big problem in Belmont. It’s not in Fulton. I mean,
there may be a wreck, it may slow you down two or
three minutes, but it’s not that big of a deal.
But blue lights flashing is a big deal when you’re a
convicted felon with an expired tag and an SKS with a
30-round mag loaded in there. That is a problem.
That’s what was going on. And that’s why he was so
agitated when he was stopped, and that’s why he ran,
and that’s why he drew his gun.
Look how he acted afterwards. He was fearing for
his life. Did he go turn himself in to another agency?
He called one. But did he go turn himself in? No, he
went to Tennessee. He called his family just to
basically tell them goodbye. They’re coming to get me.
They’re going to kill me. And he had nearly 1500
rounds of ammo.
When you get back there, pick -- this is a serious
amount of lead, folks. A bulletproof vest. Not that
common outside of law enforcement. And these
magazines made tactically. Shoot it 30 times, flip it
over and shoot it 30 times, flip it back over and shoot it

97a
30 times. You are ready for -- you are ready for the end
when you’re locked and loaded like this.
What is an officer to do when someone runs from
them and points that at them? I don’t know what will
go through your mind. You don’t have a lot of time. You
don’t have time to think about What’s my family going
to do? What’s going to happen? You just have to react.
That’s your training. And you shoot.
Now, this was two officers. Don’t work in the same
department. Happened to be at the same checkpoint.
They end up at this peaceful location with a very
nonpeaceful person. I think in his interview that you’ve
heard, Mr. Turner said, I’m not violent unless I’m
pushed. Well, he was pushed, and he got real violent.
Let’s think about the wreck. Mr. Griggs was here.
Mr. Griggs is a nice guy. A vehicle is coming and
coming head-on. You’re having to turn. You have a
sideswipe. That’s what we have. This is somebody
running from the police, by his own statement, turned
around in this -- I would sort of call it a cul-de-sac.
Nobody has called it that. But turn around in this sort
of little dead turnaround there coming at the officer.
He was getting away. He was not going to jail that
night. You heard that in his statement. He was not.
Well, he made a choice. He pointed a gun at a law
enforcement officer. He pulled the trigger. Common
sense.
So when Mr. Robbins talks to you, he’s going to talk
to you a little bit more about the elements of the crime
and of this case. But clearly, you have a situation with
a felon who had a weapon, said he knew he wasn’t

98a
supposed to have a weapon. And he had a very serious
weapon. All guns are serious. I was raised up around
guns, but that’s very, very serious. And that is a whole
lot of lead.
He ran into the police. He assaulted two officers
with a gun, and he was coming head-on at another
officer with a car. It was a dangerous, dangerous
situation. It would be nice if this was somewhere 40
miles away from everywhere, but this is so close that
Greg Mitchell could hear it at his house. His kids are
outside playing. I mean, this is a super serious, super
dangerous situation that was caused by one person,
Mr. Turner.
I’m trying to think, is it mean? Is it reckless? I
mean, it’s everything you want to think about. That is
the dumbest way to act around the police in the world.
You don’t run from the police and draw a gun on them.
I mean, you just don’t do that. That’s stupid. It’s mean.
It’s crazy. But it’s mostly mean. It’s reckless. And there
is a good reason why it’s against the law.
There are a lot of rabbit holes you could go down.
You’ve got the what happened in Itawamba County
with Mr. Six Beers Grimes. We’re not trying that case.
We could have brought half of Itawamba County here
and talk about that. That’s not what we’re here about.
That’s the old mama killdee running off saying, Don’t
look here. Don’t look here. His gun. His ammo. His
motive to run. It’s all there.
You’ve seen the demeanor of the officers. They --do
they appear to be reasonably telling the truth? I think
so.

99a
Does Mr. Turner’s statement make sense? No. This
case isn’t about acetylene torches. Okay. He went to
work. His boss was here and said, yeah, he went to
work that day. Okay. That’s several hours before. That
doesn’t have anything to do with this case.
This is what this case is about right here. And
thankfully we have live victims back here. The officers
of Tennessee are alive. We can be thankful for that, but
we have a job to do today. Thank you.

